<html>
<title> - ON THE LINE: BORDER SECURITY FROM AN AGENT AND OFFICER PERSPECTIVE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     ON THE LINE: BORDER SECURITY FROM AN 
                         AGENT AND OFFICER PERSPECTIVE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2018

                               __________

                           Serial No. 115-43

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               

                   U.S. GOVERNMENT PUBLISHING OFFICE                    
30-189 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Jeff Duncan, South Carolina          J. Luis Correa, California
Lou Barletta, Pennsylvania           Val Butler Demings, Florida
Will Hurd, Texas                     Nanette Diaz Barragan, California
John H. Rutherford, Florida          Bennie G. Thompson, Mississippi 
Don Bacon, Nebraska                      (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     6

                               Witnesses

Mr. Brandon Judd, National President, National Border Patrol 
  Council:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Jon Anfinsen, President, Local 2366, Del Rio, Texas, National 
  Border Patrol Council:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Ms. Rosemarie Pepperdine, Union Representative, Local 2544, 
  Tucson, Arizona, National Border Patrol Council:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Anthony M. Reardon, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

 
   ON THE LINE: BORDER SECURITY FROM AN AGENT AND OFFICER PERSPECTIVE

                              ----------                              


                        Tuesday, January 9, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Barletta, Hurd, 
Rutherford, Bacon, Vela, Richmond, Correa, Demings, and 
Barragan.
    Ms. McSally. The Committee on Homeland Security 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to examine the challenges 
United States Border Patrol agents and U.S. Customs and Border 
Protection officers face in carrying out their mission to 
secure our Nation's border.
    Before I begin, I would like to start with a moment of 
silence for Border Patrol Agent Rogelio Martinez, who was 
killed in the line of duty last year in Van Horn, Texas.
    I now recognize myself for an opening statement.
    Agents and officers of U.S. Customs and Border Protection 
work every single day to secure our Nation, often in rugged 
terrain, sometimes in very remote areas far away from the 
amenities of modern life. They are exposed to the blistering 
heat of the Arizona desert and the brutal cold in places like 
Havre, Montana.
    Working at the Nation's ports of entry, the men and women 
of CBP are the driving force behind our border security 
operations. The Nation is fortunate they are willing to endure 
hardship to make sure the border is secure. Agents are willing 
to take significant risks on every single shift to ensure that 
cartels cannot smuggle drugs and dangerous individuals across 
our border or through our ports of entry with impunity. It is 
dangerous work, made more dangerous because agents are subject 
to frequent assaults. Some of them have the potential to kill 
or cause grave bodily harm.
    Just a few weeks ago, an agent in San Diego was patrolling 
the border on an all-terrain vehicle when he was struck in the 
chest by a grapefruit-size rock, causing him to lose control of 
his ATV, which subsequently rolled over on him. Thankfully, the 
agent has been released from the hospital and will recover. But 
this type of assault is far from an anomaly. Many other agents 
have been seriously injured by sizable rocks thrown over the 
fence.
    On the screens to the left and the right, we have put up 
photographs of some of the gruesome injuries suffered by our 
brave agents during these rock attacks.
    Unfortunately, such assaults are becoming more commonplace, 
in part because of the increase in the number of criminal 
aliens attempting to cross the border illegally, who would 
rather resist arrest than face jail time for parole violations 
or a felony reentry charge. More should be done to ensure that 
those who assault agents are held accountable and prosecuted to 
the fullest extent of the law.
    CBP has two key missions: Securing the border and 
facilitating cross-border commerce that powers the Nation's 
economic growth. But in order to accomplish those missions, CBP 
needs enough agents and officers to be able to make arrests, 
interdict drug loads, screen cargo from countries of concern, 
and move commerce and passengers through air, land, and 
seaports of entry.
    U.S. Border Patrol agents and CBP officers are, at the end 
of the day, the most important border security and trade 
facilitation resources we have. Unfortunately, they are in 
short supply these days, which has created a National security 
and economic vulnerability that this Congress must address.
    CBP is critically understaffed and remains well below its 
Congressionally-mandated staffing levels by more than 1,000 CBP 
officers and 1,900 Border Patrol agents. The manpower shortage 
is getting worse. We are losing ground every single month, and 
there is no end in sight, as we continue to lose experienced 
agents and officers through attrition, without the ability to 
efficiently hire new ones.
    The President has smartly called for the hiring of an 
additional 5,000 agents, but we have to ensure CBP is set up 
for success to not only hire those additional agents in a 
timely fashion, but also to retain them in the future.
    The U.S. Border Patrol has not met its mandated hiring 
numbers since fiscal year 2014, and CBP has been losing 
officers since early in fiscal year 2016. Several underlying 
issues are directly responsible for these current staffing 
loads.
    For starters, it takes more than 292 days and 12 distinct 
steps, on average, to hire a new officer or agent. Very few 
people can wait somewhere between 6 months to a year for a job. 
On top of that, CBP officers and agents are required to pass a 
polygraph examination. However, the pass rates have not kept 
pace with the demand for more officers and agents.
    Earlier this year, the House passed my bill that would 
allow the commissioner of CBP to waive the polygraph 
requirement for current State and local law enforcement 
officers who have already passed a polygraph examination, 
Federal law enforcement officers who have already passed a 
stringent background investigation, and veterans with at least 
3 consecutive years in the military who have held a security 
clearance and passed a background check.
    These small changes will provide CBP with immediate relief 
so they are able to quickly yet judiciously hire officers and 
agents from a pool of qualified applicants that already 
maintain the public's trust and put their lives on the line for 
our security and safety on a daily basis.
    The challenges for our agents and officers are significant, 
which is why I have called this hearing today. I think it will 
benefit the Members of the subcommittee to receive first-hand 
testimony from the line agents on the ground.
    I want to hear your perspectives of what it will take to 
secure our border, listen to your first-hand views on the 
hiring, retention, and mobility challenges that have plagued 
CBP for the last few years, and, finally, discuss some 
solutions for the troubling and increasing trend of assaults on 
our agents.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                            January 9, 2018
    Before I begin, I would like to start with a moment of silence for 
Border Patrol Agent Rogelio Martinez, who was killed under mysterious 
circumstances last year in Van Horn, Texas.
    Agents and officers of U.S. Customs and Border Protection work 
every single day to secure our Nation, often in rugged terrain, 
sometimes in very remote areas far away from the amenities of modern 
life. They are exposed to the blistering heat of the Arizona desert, 
and the brutal cold in places like Havre, Montana.
    Working at checkpoints and ports of entry, the men and women of CBP 
are the driving force behind our border security operations. The Nation 
is fortunate that they are willing to endure hardship to make sure the 
border is secure.
    Agents willingly take significant risks on every single shift to 
ensure that cartels cannot smuggle drugs and dangerous individuals 
across the border, or through our ports of entry with impunity.
    It is dangerous work. Made more dangerous because agents are 
subject to frequent assaults--some of them have the potential to kill 
or cause grave bodily harm.
    Just a few weeks ago, an agent in San Diego was patrolling the 
border on an all-terrain vehicle was struck in the chest by a 
grapefruit-sized rock causing him to lose control of his ATV, which 
subsequently rolled over on the agent.
    Thankfully, the agent is ok, but this type of assault is far from 
an anomaly. Many other agents have been seriously injured by sizeable 
rocks thrown over the fence.
    Up on the screens to the left and right we have put up photographs 
of some of the gruesome injuries suffered by our brave agents during 
rocking attacks.
    Unfortunately, such assaults are becoming more commonplace in part 
because of the increase in the number of criminal aliens attempting to 
cross the border illegally who would rather resist arrest than face 
jail time for parole violations, or a felony reentry charge. More 
should be done to ensure that those who assault agents are held 
accountable and prosecuted to the fullest extent of the law.
    CBP has two key missions--securing the border and facilitating 
cross-border commerce that powers the Nation's economic growth.
    But in order to accomplish those missions, CBP needs enough agents 
and officers to be able to make arrests, interdict drug loads, screen 
cargo from countries of concern and move commerce and passengers 
through air, land, and sea ports of entry.
    U.S. Border Patrol agents and CBP officers are, at the end of the 
day, the most important border security and trade facilitation resource 
we have.
    Unfortunately, they are in short supply these days, which has 
created a National security and economic vulnerability that this 
Congress must address. CBP is critically understaffed and remains well 
below its Congressionally-mandated staffing levels by more than 1,000 
CBP officers and 1,900 Border Patrol agents.
    The manpower shortage is getting worse.
    We are losing ground every single month, and there is no end in 
sight as we continue to lose experienced agents and officers through 
attrition, without the ability to efficiently hire new ones.
    The President has smartly called for the hiring of an additional 
5,000 agents, but we have to ensure that CBP is set up for success to 
not only hire those additional agents in a timely fashion but also 
retain them in the future.
    The U.S Border Patrol has not met its mandated hiring numbers since 
fiscal year 2014, and CBP has been losing officers since early in 
fiscal year 2016.
    Several underlying issues are directly responsible for our current 
staffing woes.
    For starters, it takes more than 292 days and 12 distinct steps, on 
average, to hire a new officer or agent. Very few people can wait 
somewhere between 6 months to a year for a job.
    On top of that, CBP officers and agents are required to pass a 
polygraph examination, however the pass rates have not kept pace with 
the demand for more officers and agents.
    Earlier this year the House passed my bill that would allow the 
commissioner of CBP to waive the polygraph requirement for current 
State and local law enforcement officers who have already passed a 
polygraph examination, Federal law enforcement officers who have 
already passed a stringent background investigation, and veterans with 
at least three consecutive years in the military who have held a 
security clearance and passed a background check.
    These small changes will provide CBP with immediate relief so that 
they are able to quickly, yet judiciously, hire officers and agents 
from a pool of qualified applicants that already maintain the public's 
trust and put their lives on the line for our security and safety on a 
daily basis.
    The challenges for our agents and officers are significant, which 
is why I have called this hearing today. I think it will benefit the 
Members of the subcommittee to receive first-hand testimony from the 
line agents on the ground. I want to hear their perspective on what it 
will take to secure the border, listen to their first-hand views on 
hiring, retention, and mobility challenges that have plagued CBP for 
the last few years, and finally discuss some solutions to the troubling 
and increasing trend of assaults on agents.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for any 
statement he may have.
    Mr. Vela. Thank you, Chairwoman McSally, for holding 
today's hearing. Thank you also to our witnesses from the 
National Border Patrol Council and the National Treasury 
Employees Union who have joined us today.
    Given the on-going debate on border security, hearing 
directly from the unions that represent thousands of Border 
Patrol agents and Customs and Border Protection officers 
working on the front lines will be greatly beneficial to this 
subcommittee.
    Over the past several months, the White House and senior 
administration officials have insisted that building a border 
wall from coast to coast will keep out illegal drugs, criminal 
aliens, and other threats. However, CBP and U.S. Coast Guard 
officials have testified before this subcommittee time and 
again that the solutions to these threats are broader than 
simply using physical barriers.
    This subcommittee has heard that vast quantities of 
narcotics are interdicted in the Transit Zone near Central and 
South America and at our maritime borders. We know that U.S. 
Coast Guard and CBP Air and Marine Operations need modern 
assets to keep up with the flow of illegal narcotics in this 
Transit Zone.
    We have heard how drugs are smuggled into the United States 
in massive cargo containers through our land ports of entry, 
through the express mail and postal system, through tunnels 
under fences, and by ultralight aircraft and drones. We know 
that people are smuggled and trafficked into the United States 
through legitimate forms of travel, and others come here 
illegally but overstay.
    Data also shows that people on the terrorist watch list are 
encountered by CBP along our Northern Border significantly more 
frequently than along our Southern Border. Furthermore, the 
majority of these individuals present themselves at ports of 
entry rather than try to sneak into the country.
    To address these threats, CBP relies on screening and 
vetting techniques, technology, infrastructure, and most 
importantly, its officers and agents. CBP faces serious 
challenges in recruiting and maintaining a professional work 
force to accomplish its mission, and these challenges are only 
getting worse. I have mentioned multiple times this Congress 
that CPB's hiring and retention problems pose an unacceptable 
self-inflicted risk.
    Based on its work force staffing model, CBP's Office of 
Field Operations needs to deploy an additional 2,500 CBP 
officers to ports of entry in order to meet demand, and it does 
not include the more than 1,000 vacancies still left unfilled 
since the last time Congress authorized a staffing increase. 
This is a known, factual documented need.
    I understand that over the holidays, CBP officers assigned 
to some of the busiest land ports of entry along our Southern 
Border were working multiple 16-hour shifts to keep up with the 
flow of travelers and commerce. This situation is bad for the 
officers and it is bad for border security, as well as 
legitimate commerce and trade.
    Border Patrol agents are under pressure to maintain 
vigilance and professionalism in the face of cartels and other 
criminal actors who endanger their safety. Both Republican 
leadership in Congress and the administration would be wise to 
address these critical staffing and personnel needs before 
considering a multi-billion dollar border wall.
    At the same time, Border Patrol agents must contend with 
using outmoded communications technology and deteriorating 
forward-operating bases in remote regions along our borders. 
CBP has a duty to treat these men and women fairly, equip and 
compensate them appropriately.
    Manpower is a critical component of border security, and I 
look forward to hearing from our witnesses today about their 
experiences, trends, and threats they have seen on the front 
lines, and what they would like to see CBP do to address and 
prevent the exploitation of our borders by those who seek to do 
us harm. All Members support you in your efforts to secure our 
Nation's borders, while ensuring the flow of legitimate trade 
and travel that drives our Nation's economy and upholding the 
ideals that make America great.
    Again, I thank the Chairwoman for holding today's hearing, 
and I thank our witnesses for joining us.
    I yield back the balance of my time.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                            January 9, 2018
    Given the on-going debate on border security, hearing directly from 
the unions that represent thousands of the Border Patrol agents and 
Customs and Border Protection officers working on the front lines will 
be greatly beneficial to the subcommittee. Over the past several 
months, the White House and senior administration officials have 
insisted that building a border wall will keep out illegals drugs, 
criminal aliens, and other threats.
    However, CBP and U.S. Coast Guard officials have testified before 
this subcommittee time and again that the solutions to these threats 
are broader than simply using physical barriers. This subcommittee has 
heard that vast quantities of narcotics are interdicted in the transit 
zone near Central and South America and at our maritime borders.
    We know that U.S. Coast Guard and CBP Air and Marine Operations 
need modern assets to keep up with the flow of illegal narcotics in 
this transit zone. We have heard how drugs are smuggled into the United 
States in massive cargo containers through our land ports of entry, 
through the express mail and postal system, through tunnels under 
fences, and by ultralight aircraft and drones.
    We know that people are smuggled and trafficked into the United 
States through legitimate forms of travel, and others come here legally 
but overstay. Data also shows that people on the terrorist watch list 
are encountered by CBP along our Northern Border significantly more 
frequently than along our Southern Border. Furthermore, the majority of 
these individuals present themselves at ports of entry, rather than try 
to sneak into the country.
    To address these threats, CBP relies on screening and vetting 
techniques, technology, infrastructure, and--most importantly--its 
officers and agents. However, CBP faces serious challenges in 
recruiting and maintaining a professional workforce to accomplish its 
mission and these challenges are only getting worse. I have mentioned 
multiple times this Congress that CBP's hiring and retention problems 
pose an unacceptable self-inflicted risk.
    Based on its Workforce Staffing Model, CBP's Office of Field 
Operations needs to deploy an additional 2,500 of CBP officers to ports 
of entry in order to meet demand, and this does not include the more 
than 1,000 vacancies still left unfilled since the last time Congress 
authorized a staffing increase. This is a known, factual, documented 
need.
    I understand that over the holidays CBP officers assigned to some 
of the busiest land ports of entry along our Southern Border were 
working multiple 16-hour shifts to keep up with the flow of travelers 
and commerce. This situation is bad for the officers and it is bad for 
border security as well as legitimate commerce and travel.
    Border Patrol agents are under pressure to maintain vigilance and 
professionalism in the face of cartels and other criminal actors who 
endanger their safety. Both Republican leadership in Congress and the 
administration would be wise to address these critical staffing and 
personnel needs before considering a multi-billion-dollar border wall.
    At the same time, Border Patrol agents must contend with using 
outmoded communications technology and deteriorating forward operating 
bases in remote regions along our borders. CBP has a duty to treat 
these men and women fairly, equip and compensate them appropriately.
    Manpower is a critical component of border security, and I look 
forward to hearing from our witnesses today about their experiences, 
trends in threats they have seen on the front lines, and what they 
would like to see CBP do to address and prevent the exploitation of our 
borders by those who seek to do us harm. All Members support you in 
your efforts to secure our Nation's borders while ensuring the flow of 
legitimate travel and trade that drives our Nation's economy and 
upholding the ideals that make America great.

    Ms. McSally. Other Members of the committee are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            January 9, 2018
    Today's hearing is being held in the wake of President Trump's 
request for $18 BILLION to build a ``big, beautiful wall'' along the 
Southern Border.
    Spending billions on a boondoggle border wall to fulfill a campaign 
promise is a terrible use of American taxpayer money and bad border 
policy.
    The President made his request despite the fact that the Government 
Accountability Office has concluded U.S. Customs and Border Protection 
has no metrics to show how a wall contributes to border security, or if 
it contributes at all.
    Cartels have a way of going around, over, under, or through these 
walls, underscoring that walls are no panacea for our border security 
challenges.
    Meanwhile, apprehensions have continued to decline over time, to 
the point where each Border Patrol agent is now apprehending an average 
of just 17 individuals annually.
    As the CATO Institute has said, given this fact it is difficult to 
make the case that more Border Patrol agents should be a priority.
    Moreover, it is hard to envision how the administration would be 
able to hire the additional 5,000 Border Patrol agents the President 
has requested when they cannot even keep up with current attrition.
    Both the Border Patrol and the Office of Field Operations continue 
to lose personnel, as more officers and agents leave each month than 
are hired to replace them.
    DHS needs to do a better job of retaining the Border Patrol agents 
and CBP officers it already has by giving them the pay, benefits, and 
location mobility they deserve.
    In particular, the Trump administration has completely overlooked 
critical staffing shortages at our ports of entry, where CBP officers 
are often being forced to work 16-hour shifts and take temporary duty 
assignments to compensate for the lack of officers.
    These conditions compromise homeland security, slow legitimate 
travel and trade that is essential to our economy, and burn out good, 
hard-working officers.
    Why would we spend billions on a wall in the desert while leaving 
our ports of entry vulnerable to human smugglers and drug traffickers?
    Simply put, it makes no sense.
    But then, very little about the Trump administration's border 
security policy does.
    Still, this latest effort to use DREAMers as a bargaining chip to 
fulfill President Trump's fantasy of a closed immigration system and an 
unnecessary border wall is a new low for this administration.
    These demands are non-starters for Democrats and only show us that 
the President is not acting in good faith.
    I hope to hear from our witnesses today about what we can do to 
help better secure America's borders, support the men and women on the 
front lines, and do so in a way that honors our values as a Nation of 
immigrants.

    Ms. McSally. We are pleased to be joined today by four 
distinguished witnesses to discuss this important topic.
    Mr. Brandon Judd is a Border Patrol agent and the president 
of the National Border Patrol Council, representing more than 
16,500 Border Patrol line agents. He brings with him nearly 20 
years of experience as a Border Patrol agent. Mr. Judd is 
currently a Border Patrol agent assigned in Montana.
    Mr. Jon Anfinsen has been a Border Patrol agent for 11 
years and is currently assigned to the Del Rio Sector in Texas. 
He spent several years working in the prosecutions unit, 
including 2 years as a liaison to the U.S. Attorney's Office in 
Del Rio, Texas, and is certified as an EMT. Agent Anfinsen is 
the local president of the union in Del Rio, Texas, and last 
year he was elected as a national vice president with the 
national council.
    Ms. Rosemarie Pepperdine began her career with the U.S. 
Border Patrol El Cajon, California. During her 21-year career, 
she has apprehended numerous aliens, seized multiple drug 
cases, as well as worked for multiple agencies on different 
task forces, and is here from my town, Tucson, Arizona.
    Mr. Anthony Reardon is the national president of the 
National Treasury Employees Union. He is the leader of the 
largest independent Federal sector union, representing 150,000 
Federal workers, including 25,000 Custom and Border Protection 
employees. Reardon has over 25 years of hands-on experience 
addressing the concerns of front-line employees.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Judd for 5 minutes to testify.

STATEMENT OF BRANDON JUDD, NATIONAL PRESIDENT, NATIONAL BORDER 
                         PATROL COUNCIL

    Mr. Judd. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee, I would like to 
thank you for inviting me to testify today in order to 
communicate the significant challenges that our Nation's Border 
Patrol agents are facing.
    My organization and I have a long-standing relationship 
with Chairwoman McSally and Ranking Member Vela. In fact, I 
really appreciate everything that you two do for our agents.
    My name is Brandon Judd, and I currently serve as the 
president of the National Border Patrol Council, where I 
represent approximately 16,000 Border Patrol line agents. I 
have 20 years of experience as a Border Patrol agent and a 
thorough understanding of the policies affecting border 
security, and I would like to discuss a few issues with you 
today.
    The debate over what to do with undocumented immigrants in 
the United States has been raging for as long as I can 
remember, and the debate will continue as long as people from 
other countries are able to sneak across our borders, evade 
apprehension, and disappear into the shadows of society. In 
short, until the borders are secure, we will continue to have 
hearings such as this, and border security and illegal 
immigration will continue to be politicized and will continue 
to be a polarizing topic that divides liberals, moderates, and 
conservatives of all parties.
    In a recent town hall meeting, a United States Senator 
asked a packed conference room of Border Patrol agents what 
percentage of illegal border crossers in their individual 
locations are apprehended. The answers ranged from 40 to 60 
percent. He then asked what percentage of narcotics that are 
smuggled across the border are detected and seized. The 
percentage went down exponentially.
    The Senator wasn't surprised, and in a later private 
meeting he asked me what the proper percentage would be to 
consider the border secure. My answer was that the percentage 
could vary from location to location, but a secure border would 
be achieved once it became too difficult for criminal cartels 
to turn a profit and the risk outweighed the reward.
    Unfortunately, and as we speak, we still have work to do. 
Illegal cross-border crime, including human smuggling, is a 
multi-billion dollar industry and is controlled exclusively by 
organized crime within and without the United States. These 
criminal enterprises--cartels--are constantly evolving and 
adapt to our enforcement postures. The cartels have come to 
realize that we are far more reactive than proactive, which 
makes it easy for them to stay one step ahead of our 
enforcement efforts.
    In some cases, the cartels will expend a great deal of 
money and resources to dig expensive tunnels, bribe Government 
employees, build elaborate compartments in vehicles, and many 
other measures to get their contraband across the borders 
illegally. Most of the time, however, they will use simple 
ingenuity that allows them to use our laws, lack of resources, 
and prosecutorial discretion against us.
    Over the past year, we have seen a historic drop in the 
number of people entering the United States illegally. The 
administration's simple promise to enforce the laws was all it 
took to send shock waves throughout the world. Less people were 
entering the country illegally, which meant Border Patrol 
agents weren't being overwhelmed by sheer numbers. It became 
much more difficult to cross the border illegally, and I 
believe we were putting a dent in the profits of the criminal 
cartels.
    Due to such, assaults on Federal agents with a border 
security mission increased by 76 percent in 2017, compared to 
the previous year. In order to combat this issue, we must 
understand what I believe are the three drivers: Cartel 
violence, criminal aliens attempting to illegally reenter the 
United States, and manpower.
    As previously stated, all of the human and narcotic 
trafficking along the border are controlled by drug cartels. 
The cartels are extremely violent and have killed an estimated 
150,000 people, including law enforcement, in Mexico. I believe 
that the violence we are seeing is simply a spillover from the 
chaos on the other side of the border.
    The other thing is criminal aliens attempting to reenter 
the United States. For obvious reasons, criminal aliens are 
more likely to assault Border Patrol agents, and until fully 
prosecuted, I believe the assaults will continue.
    Manpower is also a huge issue. We are currently almost 
2,000 agents below the Congressional floor of 21,370 agents. 
The President has proposed the hiring of 5,000 additional 
agents, which we fully support. The committee has included the 
5,000 additional agents in the Border Security for America Act, 
and I want to thank the committee for doing so.
    However, this year, there is only a proposal to fund 500 
new agents. At this rate, the agents we hire this year will be 
halfway to retirement before we meet the goal of an additional 
5,000 new agents by 2028.
    In the field, manpower equals response time, whether it be 
a sensor hit or an agent fighting for his life. Currently, we 
have agents covering large-scale areas where the nearest backup 
may be more than 15 to 20 minutes away. As someone who has had 
to struggle to arrest a violent subject on more than one 
occasion, that kind of response time is equivalent to no 
response at all.
    I fear that the level of violence that we are seeing now 
may become the new normal. This is because the new primary 
drivers of the violence, cartels and criminal aliens, are most 
likely going to get worse, not better, in the years ahead. We 
need to focus our efforts on what we can change. This includes 
more manpower and ensuring that any assaults on an agent is 
fully prosecuted.
    I want to thank the committee for your time, and I look 
forward to answering any of your questions.
    [The prepared statement of Mr. Judd follows:]
                   Prepared Statement of Brandon Judd
                            January 9, 2018
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, I would like to thank you all for inviting me to 
testify today in order to communicate the significant challenges that 
our Nation's Border Patrol agents are facing. My organization and I 
have a long-standing relationship with both Chairwoman McSally and 
Ranking Member Vela and I want to thank you both for all your hard work 
and support for the Border Patrol.
    My name is Brandon Judd and I currently serve as the president of 
the National Border Patrol Council, where I represent 16,000 Border 
Patrol field agents. I have 20 years of experience as a Border Patrol 
agent and a thorough understanding of the policies affecting border 
security. I will be spending the bulk of my time this morning 
addressing the dramatic increase in assaults on agents in 2017.
                               background
    In 2017, assaults on agents were up 76 percent to reach 774. This 
included the tragic death of Agent Rogelio Martinez in November in Van 
Horn, Texas. There is not a day that goes by where at least one agent 
is not being sent to the hospital. Although Agent Martinez's death made 
National news, there are many cases that do not.
    Let me give you two recent examples in the last several weeks that 
barely made the news. On December 26 in Brownsville, Texas, Federal 
authorities confirmed the shooting of a U.S. Border Patrol agent 
patrolling the waters of the Rio Grande. The round shot by a ``small 
caliber'' weapon came from the river banks on the Mexican side. One 
inch the other way and the shot more than likely would have been fatal. 
On December 30 in San Diego, California, an agent was hit in the chest 
by a rock the size of a grapefruit while patrolling on an ATV. The 
force of the rock knocked him off the ATV causing the vehicle to roll 
on top of him. Thankfully, the agent did not lose consciousness and was 
able to radio for help.
    As national president, I am typically called when an agent is 
seriously assaulted. I have to tell you, when my phone rings in the 
middle of the night my heart skips a beat.
                       why the increased violence
    Many may be wondering why assaults on agents are skyrocketing when 
apprehensions for 2017 are down. Last year we apprehended 310,000 
illegal aliens as opposed to 415,000 in 2016. There is a loose 
correlation between arrests and assaults on agents. This correlation is 
limited to the extent that there will always be a percentage of illegal 
immigrants who will fight with an agent to avoid arrest.
    I believe that the following issues are driving the escalating 
violence that we are seeing at the border:
  <bullet> Cartel Violence.--All of the human and narcotic trafficking 
        along the border are controlled by the drug cartels. When I 
        joined the Border Patrol 20 years ago, there were smaller, less 
        violent organizations who ran the trade. This is not the case 
        anymore. The drug cartels are extremely violent and have killed 
        an estimated 150,000 people, including law enforcement, in 
        Mexico. In the first 6 months of 2017, violence in Mexico 
        increased to a staggering 33 percent. I believe that the 
        violence we are seeing is simply a spillover from the chaos on 
        the other side of the border.
  <bullet> Criminal Aliens Attempting to Illegally Reenter.--In 2016 we 
        apprehended over 16,000 criminal aliens. This figure includes 
        both those convicted of crimes, approximately 13,000, and those 
        with outstanding warrants in the United States, approximately 
        3,600. Last year the criminal alien apprehensions were lower at 
        11,000 apprehensions, however this is still a significant 
        number. Criminal aliens are highly likely to assault agents 
        because many of them are subject to criminal charges for either 
        illegal reentry, or prison time for violating the terms of 
        their parole. In April 2017 Attorney General Session's office 
        issued a memo stating that all 94 U.S. Attorneys' offices 
        should prosecute those who transport aliens, aliens with 2 or 
        more illegal reentries, as well as criminal aliens seeking to 
        reenter this country. Although we welcome this change, I am 
        hearing from my agents on the field that this directive is not 
        being fully implemented. I would greatly appreciate it if this 
        committee exercise its oversight role and ensure that any 
        assault on an agent is fully prosecuted.
  <bullet> Manpower.--We are currently almost 2,000 agents below the 
        Congressional floor of 21,370. The President has proposed the 
        hiring of 5,000 additional agents, which we fully support. The 
        committee has included the 5,000 additional agents in the 
        Border Security for America Act and I want to thank the 
        committee for doing so. However, the President has only 
        proposed and Congress is slated on funding for only 500 new 
        agents this year. At this rate, the agents we hire this year 
        will be half way to retirement before we meet this goal in 
        2028.
    In the field, manpower equals response time whether it be a sensor 
hit or an agent fighting for his or her life. Currently, we have agents 
covering large-scale areas where the nearest backup may be more than 15 
to 20 minutes away. As someone who has had to struggle to arrest a 
violent subject on more than one occasion, that kind of response time 
is equivalent to no response at all.
                         what can congress do?
    I fear that the level of violence that we are seeing now may become 
the new normal. This is because the two primary drivers of this 
violence, cartels and criminal aliens, are most likely going to get 
worse not better in the years ahead. We need to focus our efforts on 
what we can change. This includes more manpower and ensuring that any 
assault on an agent is fully prosecuted.
    I want to thank the committee for your time this morning and I look 
forward to answering any questions that you may have.

    Ms. McSally. Thank you, Mr. Judd.
    The Chair now recognizes Mr. Anfinsen for 5 minutes.

  STATEMENT OF JON ANFINSEN, PRESIDENT, LOCAL 2366, DEL RIO, 
             TEXAS, NATIONAL BORDER PATROL COUNCIL

    Mr. Anfinsen. Good morning, everyone.
    Chairwoman McSally and Ranking Member Vela, I want to thank 
you for inviting us to the committee and affording us the 
opportunity to testify this morning.
    My name is Jon Anfinsen, and I have been a Border Patrol 
agent for about 11 years. I have been assigned to the Del Rio 
Sector my entire career. I spent several years working in the 
prosecutions unit, including working 2 years at the U.S. 
Attorney's Office.
    I want to discuss with you this morning the issues of 
retention and recruitment and how they affect Border Patrol's 
operations in the field. As many of you know, law enforcement 
is a difficult career. The hours are long and often 
unpredictable. We work weekends and holidays. We miss out on 
birthdays and anniversaries, and unfortunately, we sometimes 
see the worst in humanity. All of this takes a toll not only on 
us but our families.
    Although there are challenges with this profession, I work 
with a lot of really great people who truly care about border 
security. They have become a second family, and after 11 years 
in the job, I still look forward to going to work every day.
    Whether we are arresting undocumented immigrants who 
recently crossed the border, interdicting drug smugglers, or 
rescuing undocumented immigrants lost in the brush, I believe 
our work makes a difference to this country. However, there are 
aspects of being an agent that present a challenge when it 
comes to recruitment, retention, and morale.
    Unlike many other Federal law enforcement agencies, Border 
Patrol work is shift work that covers 24 hours a day, 365 days 
a year. We operate in some of the most unforgiving environments 
in the country, and some agents struggle to make it to 
retirement, with a career filled with injuries. We often work 
in communities that lack quality health care, schools, and 
employment opportunities for our spouses.
    So I would like to first start by addressing agent 
retention. The Border Patrol is only as good as its employees. 
If we can't retain quality personnel, we will never be able to 
secure our border. As Brandon Judd has previously testified, we 
are approximately 2,000 agents below the Congressionally-
mandated floor of 21,370 agents. This deficit is largely due to 
the result of two issues.
    The first is the agency is facing a significant wave of 
retirement of agents who were hired in a large hiring push in 
the early 1990's. The second is agents just leaving the Border 
Patrol before they are due to retire.
    Currently, the Border Patrol has a 6 percent attrition 
rate, which is nearly twice the Government-wide Federal law 
enforcement attrition rate of 3.2 percent. Agents routinely 
transfer to other Federal law enforcement agencies for a whole 
host of reasons. Compounding the problem is the pay disparity 
that Border Patrol has with competing agencies.
    In 2014, Congress passed the Border Patrol Agent Pay Reform 
Act. This legislation modernized the overtime system that 
agents had used for over 40 years, and for the first time gave 
agents a stable pay system. This legislation, which we 
supported, was originally revenue neutral. However, through the 
legislative process, the Obama administration forced through a 
savings cut of $100 million per year in the final law, and as a 
result, the average agent took a pay cut of approximately 
$5,500.
    We only supported the legislation because the agency had 
begun limiting agents' AUO, which began affecting agents' 
monthly pay and retirement.
    It is our understanding that it costs approximately 
$180,000 to recruit, hire, and train one new agent. So that 
means with every agent that we lose, taxpayers are losing 
$180,000. If agents were properly compensated and that 
compensation leads to retaining agents, it will lead to a net 
gain for the taxpayer.
    The Border Patrol cannot be successful if our attrition 
rate remains nearly double what our sister agencies are facing. 
Therefore, we have to address this pay disparity. The National 
Border Patrol Council has already initiated discussions with 
the Trump administration to eliminate this gap. However, I hope 
that Congress might be able to play a positive role in 
resolving this issue.
    On the recruitment side, we face similar challenges. This 
committee, through the Border Security for America Act, has 
supported the administration's proposal to hire 5,000 
additional agents. In order to do this and account for 
attrition, the Border Patrol will need to hire and train 
approximately 2,729 new agents every year for the next 5 years.
    But to put this in perspective, in 2016, we hired, trained, 
and employed only 485 new agents. At this hiring rate, we are 
not able to keep up with attrition, much less add manpower.
    The single biggest hindrance to hiring is the polygraph. I 
know this is a controversial subject, but as you likely know, 
the Border Patrol is failing approximately two out of every 
three applicants, which is double the rate most law enforcement 
agencies see. So there is clearly a problem with how we are 
administering the polygraph.
    In response, last year, this committee passed the Anti-
Border Corruption Reauthorization Act, which gave the CBP the 
ability to waive the polygraph for certain law enforcement 
officers and military service members. We believe this is a 
positive step forward, but it is not the only solution. The 
bottom line is we need to start administering the polygraph 
correctly and stop treating applicants like criminal suspects.
    Despite the support the Border Patrol has received from the 
current administration, our ranks are still plagued with low 
morale. CBP has thankfully begun to seriously look at employee 
resiliency, including morale, but until we get everyone in the 
agency on-board with the concept that employee morale is part 
and parcel of effective border security, we will continue to 
lose more agents than we can hire.
    Many of the agencies that do well with recruitment and 
retention are able to provide a portfolio of the benefits and 
perks which make their agencies a desirable place to work. Now 
that all law enforcement agencies are having to compete Nation-
wide for a shrinking pool of applicants, Border Patrol needs to 
do a better job of making itself more competitive and desirable 
both for current agents and prospective employees. We have to 
get a handle on this situation sooner rather than later, 
because the adverse effects of low morale and attrition 
oftentimes are not detected until years later, usually when it 
is too late to fix the situation.
    I want to thank the committee for your time this morning, 
and look forward to answering questions that you may have.
    [The prepared statement of Mr. Anfinsen follows:]
                   Prepared Statement of Jon Anfinsen
                            January 9, 2018
                               background
    Good morning Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss several important 
issues related to Border Security. My name is Jon Anfinsen and I have 
been a Border Patrol agent for 11 years. I am currently assigned to the 
Del Rio Sector in Texas as a field agent. In addition to being a field 
agent I have also served several years working in the agency's 
prosecutions unit, including 2 years as the liaison to the U.S. 
Attorney's Office in Del Rio, Texas.
    I want to discuss with you this morning the issues of retention and 
recruitment and how they affect Border Patrol's operations. As many of 
you know, law enforcement is a difficult career. The hours are long and 
often unpredictable. We work weekends and holidays and miss out on 
birthdays and anniversaries. And, unfortunately, we sometimes see the 
worst of humanity. We will encounter violence and resistance, as 
increasingly every action we take is under the microscope. All of this 
takes a toll on not only us, but our families.
    Although there are challenges with this profession, I work with a 
lot of really great people who care about border security. They have 
become a second family and after 11 years on the job I still look 
forward to work every day. We do a job that truly matters and whether 
it is arresting illegal aliens who recently crossed the border, 
interdicting drug smugglers, rescuing illegal aliens lost in the brush, 
or a litany of other activities, I believe our work makes a difference 
to this country.
    However, there are aspects of being a Border Patrol agent that 
present a challenge when it comes to recruitment, retention, and 
morale. Unlike many other Federal law enforcement agencies, Border 
Patrol works shift work that covers 24 hours a day, 7 days a week, 365 
days a year. We operate in some of the most unforgiving environments in 
the country. This job is physically hard on our bodies and some agents 
struggle to make it to retirement after a career filled with injuries. 
And we often work in communities that lack quality health care, 
schools, and employment opportunities for our spouses. Many of the 
amenities folks here in Washington, DC take for granted simply do not 
exist where we live and work.
                               retention
    I would like to first start with addressing agent retention. As an 
agency, the Border Patrol is only as good as its employees. If we 
cannot retain quality personnel we will never be able to secure our 
border. As Brandon Judd has previously testified, we are approximately 
2,000 agents below the Congressionally-mandated floor of 21,370 agents.
    This deficit is largely the result of two issues: The first is that 
the agency is facing a significant wave of retirements of agents who 
were brought on during the hiring spree in the early 1990s and the 
second is agents leaving the Border Patrol prior to retirement which 
remains a persistent problem. Currently, the Border Patrol has a 6 
percent attrition rate which, according to GAO data (GAO-09-727), is 
nearly twice the Government-wide Federal law enforcement attrition rate 
of 3.2 percent. Border Patrol agents routinely transfer to other 
Federal law enforcement agencies for a host of reasons. By transferring 
to other agencies, they gain a regular schedule, in most cases a less 
physically strenuous job, have access to different career paths, and 
typically find employment in a major metropolitan area where the 
amenities are much greater.
    Compounding the problem is the pay disparity that Border Patrol has 
with competing agencies. In 2014, Congress passed the Border Patrol 
Agent Pay Reform Act (Pub. L. 113-277). This legislation modernized the 
overtime system that Border Patrol agents had used for over 40 years 
and for the first time gave Border Patrol agents a stable pay system. 
This legislation, which we supported, was originally revenue neutral. 
However, through the legislative process, the Obama administration 
forced through a savings cut of $100 million per year in the final law. 
As a result, the average Border Patrol agent took a pay cut of 
approximately $5,500. We only supported the legislation because the 
agency had begun limiting agents Administratively Uncontrollable 
Overtime, which began affecting agents' monthly pay and retirement.
    It is our understanding that it costs approximately $180,000 to 
recruit, hire, and train one new agent, which means with every agent we 
lose, taxpayers lose $180,000. If agents were properly compensated, it 
would ultimately lead to a net gain for the taxpayer.
    The Border Patrol cannot be successful as an organization if our 
attrition rate remains nearly double what our sister agencies are 
facing; therefore, we must address this pay disparity. The National 
Border Patrol Council has already initiated discussions with the Trump 
administration to eliminate this gap, however I hope that Congress 
might be able to play a positive role in resolving this issue.
                              recruitment
    On the recruitment side, we face similar challenges. This 
committee, through the Border Security for America Act, has supported 
the administration's proposal to hire 5,000 additional agents to bring 
us to 26,370. In order to do this and account for attrition, the Border 
Patrol will need to hire and train approximately 2,729 new agents every 
year for the next 5 years. To put this in perspective, in 2016, the 
Border Patrol hired, trained, and deployed only 485 new agents. At this 
hiring rate we are not able to keep up with attrition, much less add 
manpower.
    Above all, the single biggest hindrance to hiring is the polygraph. 
I know this is a controversial subject, but as you likely know the 
Border Patrol is failing approximately 2 out of every 3 applicants, 
which is double the rate most law enforcement agencies see. There is 
clearly a problem with how we are administering the polygraph.
    In response, last year this committee passed the Anti-Border 
Corruption Reauthorization Act. This legislation would provide CBP with 
the ability to waive the polygraph for certain State and local law 
enforcement officers who previously passed their agency's polygraph, as 
well as other Federal law enforcement and military service members, 
provided they meet certain conditions.
    We believe this is a positive step forward, but not the solution. 
The bottom line is that we need to start administering the polygraph 
correctly and stop treating prospective job applicants like criminal 
suspects. There are many agents in the field who personally know an 
applicant--some of whom they recruited--who has failed the polygraph. 
Ironically, many of these applicants later get hired by State, local, 
or other Federal law enforcement agencies, sometimes passing another 
polygraph.
    Despite the support the Border Patrol has received from the current 
administration, our ranks are still plagued with low morale. There 
unfortunately remains within our agency those who believe it is not the 
job of a manager to be concerned with employee morale and that it is up 
to each individual agent to find their own motivation to do this job. 
CBP has thankfully begun to seriously look at employee resiliency, 
including morale, but until we get everyone in the agency on board with 
the concept that employee morale is part and parcel of effective border 
security, we will continue to lose more agents than we can hire.
    Many of the agencies that do well with recruitment and retention 
are able to provide a portfolio of the benefits and perks which make 
their agencies a desirable place to work. Now that all law enforcement 
agencies are having to compete with agencies Nation-wide for a 
shrinking pool of applicants, Border Patrol needs to do a better job of 
making itself more competitive and desirable, both for current agents 
and prospective employees. We have to get a handle on this situation 
sooner, rather than later, because the adverse effects of low morale 
and attrition oftentimes are not detected until years later, usually 
when it is too late to fix the situation.
    I want to thank the committee for your time this morning and I look 
forward to answering any questions that you may have.

    Ms. McSally. Thank you, Mr. Anfinsen.
    The Chair now recognizes Ms. Pepperdine for 5 minutes.

STATEMENT OF ROSEMARIE PEPPERDINE, UNION REPRESENTATIVE, LOCAL 
     2544, TUCSON, ARIZONA, NATIONAL BORDER PATROL COUNCIL

    Ms. Pepperdine. Chairwoman McSally, Ranking Member Vela, 
and distinguished Members of the subcommittee, I would like to 
thank you all for inviting me to testify today.
    I began my career with the U.S. Border Patrol in 1996. 
During the first half of my career, I was stationed in the San 
Diego Sector, and in 2005, I transferred to the Tucson Sector. 
I am proud to work side-by-side with the resilient men and 
women of the Border Patrol who are driven to address the 
challenges our Nation faces along the border.
    I would like to address three things this morning that 
highlight how we can more effectively utilize our limited 
manpower.
    Currently, 653 miles of the 2,000 miles of Southern Border 
is fenced at a cost of nearly $7 billion since fiscal year 
2007. This fencing consists of 353 miles of primary fencing, 
300 miles of vehicle fencing, 36 miles of secondary fencing 
behind the primary fencing, 14 miles of tertiary fencing behind 
the secondary fence.
    Fencing is a tool that allows agents to maximize their 
available manpower. It is not, however, a single solution to 
illegal immigration and drug trafficking. Illegal immigrants 
and drug traffickers routinely go over, under, and through 
existing fencing. Fencing without the manpower to arrest those 
who penetrate it is not a prudent investment.
    What fencing does do is allow us to maximize our manpower. 
Generally speaking, in areas where there is no primary fencing, 
it takes one agent to secure a linear mile of the border. 
However, in areas where there is fencing, we can increase the 
range of an agent to 3 miles.
    With that said, I want to be clear about our position on 
fencing. Our first priority is placing secondary fencing behind 
the primary fencing that we already have. This can be done 
quickly and at a nominal cost. To put this in perspective, the 
36 miles of secondary fencing already in place was constructed 
for $2 million per mile.
    Beyond secondary fencing, we believe that only about 300 
additional miles of primary fencing is needed. The 300 miles of 
new fencing would focus on areas such as Del Rio, Laredo, and 
the Tohono O'odham Indian Reservation in Arizona.
    Effective communication is both a force multiplier and a 
critical component of agent safety. In CPB's fiscal year 2017 
Congressional budget request stated that 18,000 units lack 
adequate security voice encryption, 25,000 units have exceeded 
their useful life, and 35,000 units cannot communicate with 
State and local law enforcement agencies.
    For most of my career, I have been issued a radio that 
oftentimes does not work in the field. The primary issue is a 
lack of signal coverage. Essentially, if you are not within 
close proximity of a CBP radio tower, you cannot communicate.
    When working in remote areas alone and without backup, an 
inoperable radio quickly becomes a safety issue. Many times in 
my career I had a visual of a fellow agent, but could not 
communicate via my service radio, and in some instances, I had 
to use my personal cell phone to communicate to other agents.
    With that said, the Council would like to thank the 
committee for including language in the Border Security for 
America Act calling for future radio procurements to include 
LTE capability. Most likely, everyone in this room has a 
smartphone with an LTE capability. Right now, there are LTE-
capable public safety ratios that can operate on CBP's radio 
communication system. If a signal is not available, you are 
able to switch to a commercial LTE provider. This LTE 
capability is a quantum leap forward, and will greatly improve 
both agent safety and effectiveness.
    The Border Patrol is an extremely top-heavy organization 
with far too many layers of management and convoluted chain of 
command. Although Congress has appropriated funds to double the 
size of the Border Patrol, we have, unfortunately, not doubled 
the number of agents in the field.
    To put this in perspective, the average large-size police 
department has 1 supervisor for every 10 officers. The Border 
Patrol has 1 supervisor for every 4 agents. Why do we have 
twice as many supervisors as other large law enforcement 
agencies? Your guess is as good as mine.
    The reason, in my opinion, that this imbalance has been 
able to persist is that in headquarters, there are only about 
300 agents. The real management bloat has been at the sector 
and station level. In some sectors we have more agents assigned 
than we do at headquarters. The Council has long advocated that 
Congress should force the agency to rightsize its management 
structure to something more in line with other law enforcement 
agencies.
    In addition, allow me to offer another efficiency Border 
Patrol should definitely pursue: Processing. Anyone arrested by 
Border Patrol is brought back to the station and processed 
before being turned over to either ICE or voluntarily returned 
to their country. This includes taking biometrics, running a 
criminal background check for outstanding warrants, and filling 
out the appropriate paperwork. Depending on how busy it is in 
some locations, you can have 15 to 20 percent of the agents 
bogged down processing and not active in the field. In 
comparison, many police departments have civilian employees, 
who make considerably less than officers, handle the bulk of 
the processing.
    Thank you for your time this morning, and I look forward to 
answering any questions that you may have.
    [The prepared statement of Ms. Pepperdine follows:]
               Prepared Statement of Rosemarie Pepperdine
                            January 9, 2018
                               background
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, I would like to thank you all for inviting me to 
testify today. I began my career with the U.S. Border Patrol in 1996. 
During the first half of my career I was stationed in El Cajon, 
California and in 2005 I transferred to the Tucson Sector. I am proud 
to work side-by-side with the resilient men and women of the Border 
Patrol who are driven to address the challenges that our Nation faces 
along the border.
    I would like to address three themes this morning that highlight 
how we can more effectively utilize our limited manpower.
                                fencing
    Currently 653 miles of the nearly 2,000 miles of the Southern 
Border is fenced at a cost of nearly $7 billion since fiscal year 2007. 
This fencing consists of:
  <bullet> 353 miles of primary fencing;
  <bullet> 300 miles of vehicle fencing;;
  <bullet> 36 miles of secondary fencing behind the primary fencing;
  <bullet> 14 miles of tertiary fencing behind the secondary fence.
    Fencing is a tool that allows agents to maximize their available 
manpower. It is not however a single solution to illegal immigration 
and drug trafficking. Illegal immigrants and drug traffickers routinely 
go over, under, and through existing fencing. Fencing without the 
manpower to arrest those who penetrate it is not a prudent investment.
    What fencing does do is allow us to maximize our manpower. 
Generally speaking, in areas where there is no primary fencing, it 
takes one agent to secure a linear mile of the border. However, in 
areas where there is fencing we can increase the range of an agent to 3 
miles.
    With that said, I want to be clear about our position on fencing. 
Our first priority is placing secondary fencing behind the primary 
fencing that we already have. This can be done quickly and at a nominal 
cost. To put this in perspective, the 36 miles of secondary fencing 
already in place was constructed for $2 million per mile.
    Beyond secondary fencing, we believe that only about 300 additional 
miles of primary fencing is needed. The 300 miles of new fencing would 
focus on areas such as Del Rio, Laredo, and the Tohono Odem Indian 
Reservation in Arizona.
                      interoperable communications
    Effective communication is both a force multiplier and a critical 
component to agent safety. In CBP's fiscal year Congressional Budget 
Request stated that 18,000 units lack adequate security voice 
encryption, 25,000 units have exceeded their useful life, and 35,000 
units cannot communicate with State and local law enforcement agencies.
    For most of my career, I have been issued a radio that often times 
does not work in the field. The primary issue is the lack of signal 
coverage. Essentially if you are not within close proximity of a CBP 
radio tower you cannot communicate. When working in remote areas alone 
and without backup, an inoperable radio quickly becomes a safety issue. 
Many times in my career, I had visual of a fellow agent but could not 
communicate via my service radio and in some instances I had to use my 
personal cell phone to communicate to other agents.
    With that said, the Council would like to thank the committee for 
including language in the Border Security for America Act calling for 
future radio procurements to include LTE capability. Most likely, 
everyone in this room has a smartphone with LTE capability. Right now 
there are LTE-capable public safety radios that can operate on CBP's 
radio communication system. If a signal is not available, you are able 
to switch to a commercial LTE provider. This LTE capability is a 
quantum leap forward and will greatly improve both agent safety and 
effectiveness.
       supervisor staffing levels and agents doing non-agent work
    The Border Patrol is an extremely top-heavy organization with far 
too many layers of management and a convoluted chain of command. 
Although Congress has appropriated funds to double the size of the 
Border Patrol, we have unfortunately not doubled the number of agents 
in the field.
    To put this in perspective, the average large-size police 
department has 1 supervisor for every 10 officers. The Border Patrol 
has 1 supervisor for every 4 agents. Why do we have twice as many 
supervisors as other large law enforcement agencies? Your guess is as 
good as mine.
    The reason, in my opinion, that this imbalance has been able to 
persist is that in headquarters there are only about 300 agents. The 
real management bloat has been at the sector and station level. In some 
sectors we have more agents assigned than we do at headquarters. The 
Council has long advocated that Congress should force the agency to 
right-size its management structure to something more in line with 
other law enforcement agencies.
    In addition, allow me to offer another efficiency Border Patrol 
should definitely pursue--processing. Anyone arrested by the Border 
Patrol is brought back to the station and processed before being turned 
over to either ICE, or voluntarily returned to their country. This 
includes taking biometrics, running a criminal background check for 
outstanding warrants, and filling out the appropriate paperwork. 
Depending on how busy it is in some locations, you can have up to 15 to 
20 percent of the agents bogged down processing and not active in the 
field. In comparison, many police departments have civilian employees, 
who make considerably less than officers, handle the bulk of the 
processing.
    Thank you for your time this morning and I look forward to 
answering any questions that you may have.

    Ms. McSally. Thank you, Ms. Pepperdine.
    The Chair now recognizes Mr. Reardon for 5 minutes.

 STATEMENT OF ANTHONY M. REARDON, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Reardon. Chairwoman McSally, Ranking Member Vela, thank 
you for the opportunity to testify on behalf of over 25,000 
front-line Customs and Border Protection officers, agriculture 
specialists, and trade enforcement specialists at CBP, who are 
stationed at 328 U.S. air, sea, and land ports of entry, and at 
preclearance operations overseas.
    First, I would like to say that NTEU supports the 
nomination of Kevin McAleenan to be the next CBP commissioner.
    That said, there is no greater roadblock to border 
security, stopping illicit trafficking in people, drugs, 
illegal weapons, and money, and to ensuring legitimate trade 
and travel efficiency than the lack of sufficient staffing at 
the ports.
    The current CBP officer shortage is indeed staggering. 
There is a vacancy rate of nearly 1,200 funded CBP officers at 
the ports. According to CBP, an additional 2,500 CBP officers 
needed to be funded and hired in order to meet 2018 staffing 
needs. So as of today, there is a total CBP officer staffing 
shortage of 3,700.
    The economic cost of this shortage is also staggering. For 
every 33 additional CBP officers hired, the United States can 
potentially gain over 1,000 private-sector jobs. If Congress 
fully staffed the ports, 112,000 private-sector jobs could be 
created.
    Understaffed ports lead to long delays in travel and cargo 
lanes, and also create a significant hardship for front-line 
employees. Both involuntary overtime and involuntary work 
assignments far from home disrupt CBP officers' family life and 
destroys morale.
    An example of the negative impact of staffing shortages can 
be found at San Ysidro and Nogales, where CBP has instituted 
involuntary temporary duty assignments, or TDYs.
    Starting January 7, a new round of 175 CBP officers are 
being sent from other ports to Nogales, which is critically 
understaffed. However, these TDYs then create short-staffing 
situations at other ports of entry, such as the Orlando 
International Airport, where airport officials have taken to 
Congress their concerns with losing 10 CBP officer positions to 
TDYs.
    Many of you have toured the San Ysidro port of entry. The 
screens show a typical day there. As you can see, there are 26 
primary vehicle lanes with up to two booths at each lane, a 
total of 50 booths. Approximately 60,000 vehicles and 25,000 
pedestrians apply for entry each day. Over 139,000 travelers on 
a daily basis. In the photo insert, you can see the pedestrian 
crossers.
    Today, this port has over 200 CBP officer vacancies. By the 
summer of 2019, this port will expand to 32 lanes with 62 
booths. Imagine working up to 16 hours a day, days on end, with 
no relief in sight. But neither the President's January 2017 
Executive Order nor the fiscal year 2018 omnibus include any 
new funding even to meet today's on-board staffing needs at the 
ports of entry.
    The CBP employees I represent are frustrated that Congress 
does not seemingly recognize that securing the ports of entry 
is just as vital to border security as is securing the borders 
between the ports of entry and that the ports are an economic 
driver of the U.S. economy.
    However, NTEU does have concerns with CPB's decision to 
award a multi-million-dollar contract to augment CBP's hiring 
process. While we support increased hiring efforts, NTEU 
believes this money could be better spent by utilizing 
available pay flexibilities on actual officers to incentivize 
new and existing CBP officers to seek vacant positions at hard-
to-fill ports of entry. It is imperative that Congress fund CBP 
officer new hires to alleviate the on-going CBP staffing 
shortages at the ports of entry.
    Thank you, and I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Reardon follows:]
                Prepared Statement of Anthony M. Reardon
                            January 9, 2018
    Chairwoman McSally, Ranking Member Vela, distinguished Members of 
the subcommittee, thank you for the opportunity to deliver this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 25,000 
Customs and Border Protection (CBP) officers, agriculture specialists 
and trade enforcement personnel stationed at 328 land, sea, and air 
ports of entry across the United States (U.S.) and 16 Preclearance 
stations currently in Ireland, the Caribbean, Canada, and United Arab 
Emirates airports. CBP's Office of Field Operations (OFO) pursues a 
dual mission of safeguarding American ports, by protecting the public 
from dangerous people and materials, while enhancing the Nation's 
global and economic competitiveness by enabling legitimate trade and 
travel.
    In addition to CBP's trade and travel security, processing, and 
facilitation mission, CBP OFO employees at the ports of entry are the 
second-largest source of revenue collection for the U.S. Government. In 
2016, CBP processed more than $2.2 trillion in imports and collected 
more than $44 billion in duties, taxes, and other fees. Thank you for 
this opportunity to address the border security issue of utmost concern 
to CBP OFO employees--hiring and funding challenges that contribute to 
ports of entry being chronically understaffed.
    Having met with thousands of CBP officers at the ports of entry, I 
can tell you that the No. 1 border security issue from the CBP OFO 
employee perspective is the critical staffing shortage at the ports of 
entry, and this staffing shortage is staggering. Understaffed ports 
lead to long delays in travel and cargo lanes and also create 
significant hardship and safety issues for front-line employees. 
Involuntary overtime and involuntary work assignments far from home 
disrupt CBP officers' family life and destroy morale.
    There is an existing vacancy rate of nearly 1,200 funded CBP 
officers at the ports and, according to CBP's analytic workload 
staffing model, an additional 2,500 CBP officers and 731 agriculture 
specialists need to be funded and hired in order to meet 2018 staffing 
needs. With the existing vacancy of 1,200 funded CBP officers this adds 
up to a total CBP officer staffing shortage of 3,700 today.
    The more than 25,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports, but front-line CBP officers and 
agriculture specialists at our Nation's ports of entry need relief.
    The economic cost of the CBP OFO staffing shortage is also 
staggering. CBP employees at the ports of entry are not only the front 
line for illegal trade and travel enforcement, but their role of 
facilitating legal trade and travel is a significant economic driver 
for private-sector jobs and economic growth. According to CBP fiscal 
year 2013 data, for every 1,000 CBP officers hired there is an increase 
in the Gross Domestic Product (GDP) of $2 billion; $642 million in 
opportunity costs are saved (the quantification of time that a traveler 
could be using for other purposes than waiting in line, such as working 
or enjoying leisure activities); and 33,148 annual jobs are added. For 
every 33 additional CBP officers hired, the United States can 
potentially gain over 1,000 private-sector jobs. If Congress fully 
staffed the ports with the needed 3,700 additional CBP officers, 
112,000 private-sector jobs could be created.
    If the full 3,700 CBP officers were funded and hired according to 
the same study, the impact could be as high as a $7 billion increase in 
GDP; a $2 billion savings in opportunity costs; and the creation of 
112,000 new jobs.
    Noting the positive impact of hiring additional CBP officers, it is 
troubling that even though Congress actually appropriated funding to 
hire 2,000 additional CBP officers in fiscal year 2014, CBP has only 
realized a net gain of approximately 900 officers as of December 2017, 
due to attrition and the amount of time it takes to on-board new CBP 
officers.
    As you know, the President's January 2017 Executive Order calls for 
hiring 5,000 additional Border Patrol agents (BPAs) and 10,000 new 
Immigration and Customs Enforcement (ICE) agents, but does not ask for 
one additional CBP officer new hire, despite the fact that CBP officers 
at the ports of entry in 2017 recorded over 216,370 apprehensions and 
seized over 444,000 pounds of illegal drugs, and over $96 million in 
illicit currency, while processing over 390 million travelers and $2.2 
trillion in imports through the ports.
    In response to the President's January 2017 Executive Order, 
Congress included funding to hire 500 new Border Patrol agents despite 
the fact that there is no workload staffing model justifying this 
increase. In fact, the Inspector General for Homeland Security issued a 
report in November 2017 that said CBP could not provide enough data to 
justify the hiring of additional Border Patrol agents. Increasing 
staffing between the ports will just funnel more criminals, terrorists, 
drug and human smugglers into the ports of entry further exacerbating 
the current staffing crisis at the ports. It is essential to recognize 
that CBP OFO has a workload staffing model that shows a staffing 
shortage of 2,500 CBP officers and 721 agriculture specialists at the 
ports of entry (not including the 1,200 current CBP officer vacancies), 
yet Congress has not provided any funding to address this staffing gap.
    The risk of successful incursions through the ports of entry by 
terrorists, smugglers, and other criminals increase when ports are 
under constant pressure to limit wait times while working short-
staffed. If port traffic increases significantly due to squeezing 
illegal activity there, it will become impossible for CBP officers and 
agriculture specialists to stop bad actors and bad things from coming 
through the ports without significantly increasing wait times, which 
will harm legal international trade and travel. Ports need to hire up 
to the level specified in CBP's OFO workload staffing model in order to 
address existing trade and travel traffic.
    According to the Joint Economic Committee (JEC), every day 1.1 
million people and $5.9 billion in goods legally enter and exit through 
the ports of entry. The volume of commerce crossing our borders has 
more than tripled in the past 25 years. Long wait times lead to delays 
and travel time uncertainty, which can increase supply chain and 
transportation costs. According to the Department of Commerce, border 
delays result in losses to output, wages, jobs, and tax revenue due to 
decreases in spending by companies, suppliers, and consumers. JEC 
research finds border delays cost the U.S. economy between $90 million 
and $5.8 billion each year.
                     cbp officer hiring challenges
    NTEU continues to have significant concerns about the slow pace of 
hiring at CBP. CBP has struggled to fill the initial 2,000 positions 
Congress authorized in 2014. One factor that may be hindering hiring is 
that CBP is not utilizing available pay flexibilities, such as 
recruitment, retention, and relocation incentives (3 Rs) and special 
salary rates, to incentivize new and existing CBP officers to seek 
vacant positions at these hard-to-fill ports, such as Nogales. When 
using a recruitment incentive to attract employees to a certain 
location, CBP must be mindful that this incentive should be used in 
conjunction with retention incentives. Otherwise, a situation is 
created where a newly-hired employee is working side-by-side with a 
veteran employee that not only is denied the opportunity to transfer 
out, but may also now be paid less than a new recruit. The 3 Rs are 
also needed to attract transfers to the most severely short-staffed 
ports, such as San Ysidro, Nogales, and Laredo.
    Another major impediment to fulfilling CBP's hiring goal is that 
CBP is the only Federal agency with a Congressional mandate that all 
front-line officer applicants receive a polygraph test. Two out of 
three applicants fail its polygraph--about 65 percent--more than double 
the average rate of 8 law enforcement agencies according to data 
provided to the Associated Press. The 8 law enforcement agencies that 
supplied information showed an average failure rate of 28 percent. As 
an example, the U.S. Drug Enforcement Administration failed 36 percent 
of its applicants in the past 2 years.
    NTEU commends Congress for including in the fiscal year 2017 
Defense authorization bill a provision that authorized the CBP 
Commissioner to waive polygraph examination requirements for certain 
veterans applying for CBP job openings. NTEU also commends Subcommittee 
Chairwoman McSally for introducing and working for House passage of 
H.R. 2213, a bill that expands the authority to waive polygraph 
examinations for veterans and to allow exemptions for existing State 
and local law enforcement officers who apply for these positions at 
CBP.
    NTEU does not seek to reduce the standards used by CBP in their 
hiring process, but believes that there is a problem with how the 
polygraph is currently administered. CBP reviewed its polygraph policy 
to understand why CBP is failing applicants at a much higher rate than 
individuals applying to work at other Federal law enforcement agencies 
and is currently piloting a change in the CBP polygraph test from ``Law 
Enforcement Pre-Employment Test'' to ``Test for Espionage, Sabotage and 
Corruption'' which appears to be resulting in improved passage rates. 
NTEU also recommends that CBP allow immediate polygraph re-testing 
opportunities to those with a ``No Opinion'' or ``Inconclusive'' 
result, including those with a ``No Opinion Counter Measures'' finding. 
Also, because ICE does not require polygraphs for job applicants, it is 
likely that CBP will not be competitive with ICE in attracting new 
hires.
    In addition to the complaints about the polygraph process, NTEU has 
heard that CBP candidates frequently are subject to a segmented hiring 
process where they are required to travel hundreds of miles in some 
cases to fulfill the tests and procedures required under the 
application process. This can be a significant hardship for applicants 
that results in them dropping out of the hiring process.
    Finally, if the hiring problems that have left over 1,200 funded 
CBP positions vacant are rectified and as CBP embarks on the hiring of 
additional front-line personnel as set forth in recent Executive 
Orders, CBP may need to expand their training classes. When 
experiencing a hiring surge in the past, the Federal Law Enforcement 
Training Center (FLETC) instituted a 6-day training program to 
accommodate the expanded classes. NTEU supports FLETC 6-day training, 
as long as the employees are paid for 6 days of training. NTEU is proud 
to be newly representing FLETC employees that work and reside in 
various locations across the country.
    To address some of these hiring concerns, CBP awarded a $297 
million contract with Accenture Federal Services on November 12, 2017 
``to manage the full life cycle of the hiring process from job posting 
to processing'' of 7,500 CBP Border Patrol, Air and Marine, and OFO new 
hires. NTEU has seen reports that the 5-year contract cost is 
approximately $39,600 per hire--nearly the same as the starting salary 
of a CBP officer. NTEU strongly believes that these Federal funds would 
be better spent actually hiring new CBP employees using CBP's in-house 
human resources department rather than in contracting out to a private-
sector consultant ``to augment our internal hiring capabilities.''
    Last, the best recruiters are likely current CBP officers. 
Unfortunately, morale continues to suffer because of staffing 
shortages. In addition to being overworked due to excessive overtime 
requirements, temporary duty assignments are a major drag on employees, 
especially those with families. Based on their experiences, many 
officers are reluctant to encourage their family members or friends to 
seek employment with CBP. I have suggested to CBP leadership that they 
look at why this is the case. NTEU strongly believes that addressing 
OFO hiring shortages by funding needed new CBP officer and agriculture 
specialist to fill the fiscal year staffing gap will do more to improve 
morale and encourage peer-to-peer recruitment than funding a private 
contractor to help recruit and hire new CBP employees.
                          cbp officer overtime
    Also, due to the on-going current staffing shortage of over 3,700 
CBP officers, CBP officers Nation-wide are working excessive overtime 
to maintain basic port staffing. Currently, CBP officer overtime pay is 
funded 100 percent through user fees and is statutorily capped at 
$45,000 per year. All CBP officers are aware that overtime assignments 
are an aspect of their jobs. However, long periods of overtime hours 
can severely disrupt an officer's family life, morale, and ultimately 
their job performance protecting our Nation.
    Because of the on-going staffing shortages, CBP officers can be 
required to regularly work overtime which results in individual 
officers hitting the overtime cap very early in the fiscal year. This 
leaves no overtime funding available for peak season travel, holidays, 
and other times when CBP officers are expected to work overtime 
resulting in critical staffing shortages in the third and fourth 
quarter of the fiscal year that usually coincide with peak travel at 
the ports.
    At many ports, CBP has granted overtime exemptions to over one-half 
of the workforce to allow managers to assign overtime to officers that 
have already reached the statutory overtime cap, but cap waivers only 
force CBP officers already working long daily shifts to continue 
working these shifts for more days. Officers are required to come in 
hours before their regular shifts, to stay an indeterminate number of 
hours after their shifts (on the same day) and compelled to come in for 
more overtime hours on their regular days off as well. Both involuntary 
overtime--resulting in 12- to 16-hour shifts, day after day, for months 
on end--and involuntary work assignments far from home significantly 
disrupt CBP officers' family life, erode morale, and are not a solution 
for staffing shortages at the ports.
      temporary duty assignments at southwest land ports of entry
    Due to CBP's on-going staffing shortage, since 2015, CBP has been 
diverting CBP officers from other air, sea, and land ports to severely 
short-staffed Southwest land ports for 90-day temporary duty 
assignments (TDYs). Owing to the failure to fill CBP officer positions, 
neither the San Ysidro (see attached) nor the Nogales land ports can 
safely function without these TDYs. On December 13, 2017, CBP sent the 
following message to all OFO Field Offices:

``The Tucson Field Office is currently experiencing critical shortages 
of front-line personnel. These long-term staffing shortfalls continue 
to stretch the limits of operational, enforcement, and training 
capabilities at the ports of entry. In support of this, Headquarters is 
soliciting 175 CBP Non-Supervisory Officers to serve in a Temporary 
Duty (TDY) capacity to support the Tucson Field Office with Operation 
Overflow Fiscal Year 2018 Phase 2 from January 7, 2018 (travel day in) 
through March 30, 2018 (travel day out).''

    In response to CBP's TDY reassignments, Orlando International 
Airport (OIA) officials sent a December 22 letter to their 
Congressional delegation expressing concerns about losing 10 CBP 
officers to these TDYs. `` . . . We believe taking 10 CBP officers from 
their important and critical duties at OIA will pose a serious and 
noticeable safety and security problem for the traveling public and the 
thousands of employees at OIA . . . This directive will seriously 
diminish the security at OIA by adding more demands on already 
overburdened CBP officers who have been stretched to the limit to meet 
ever-increasing international visitation demands.''
    To end TDYs, CBP must fill the 1,200 CBP officer vacancies and fund 
the hiring of the additional 2,500 CBP officers. In the mean time, to 
encourage volunteers for these TDYs and avoid forced TDYs, NTEU 
suggests Congress ask CBP to supplement the TDY solicitation to 
include:
  <bullet> The TDY pool should be increased by including non-bargaining 
        unit personnel such as qualified Headquarters staff, 
        supervisors, and other employees on special teams such as the 
        Tactical Terrorism Response Team and the Strategic Response 
        Team, and by including all officers who have graduated from the 
        Federal Law Enforcement Training Center and who have received a 
        sufficient amount of post-academy training;
  <bullet> CBP should schedule TDYs in such a way that the supplemental 
        staffing through TDYs remains constant, so there is not a gap 
        between the departure of one round of TDYs and the arrival of 
        the next, and a surplus of volunteers for a TDY from one Field 
        Office should be allowed to make up for a shortage of 
        volunteers in another Field Office;
  <bullet> CBP should establish an advertised cash award for 
        individuals who volunteer for a TDY and should offer available 
        incentives such as student loan repayments, overtime cap 
        waivers, and home leave;
  <bullet> Approved leave should continue to be allowed during a TDY.
                      impact of staffing shortages
    As cited in a 2008 GAO report, ``[CBP] officers and managers told 
us that not having sufficient staff contributes to morale problems, 
fatigue, lack of backup support and safety issues when officers inspect 
travelers--increasing the potential that terrorists, inadmissible 
travelers, and illicit goods could enter the country.'' (See GAO-08-2 
19, page 7.)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue . . . officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219, page 33.)
    These impacts, as reported to Congress by GAO, have changed little 
as CBP officer staffing continues to lag far behind pedestrian, 
vehicle, and commercial traffic volume at the ports. In fact, with 
1,200 vacancies and 2,500 CBP officer positions yet to be authorized 
and funded, the situation is even worse today.
    Staffing shortages have also reduced the number of CBP officers 
available to conduct more in-depth secondary inspections. In the past, 
there were three inspectors in secondary processing for every one 
inspector in primary processing. Now there is a 1-to-1 ratio.
    Without adequate personnel at secondary, wait times increase and 
searches are not done to specification. This is a significant cargo 
security issue. For example, a full search of one vehicle for 
counterfeit currency will take two officers on average a minimum of 45 
minutes. Frequently, only one CBP officer is available for this type of 
search and this type of search will then take well over an hour.
                        impact on officer safety
    Staffing shortages at the ports also threaten CBP officer safety. 
For example, at the Brownsville and Matamoros International Bridge at 
about 8:15 p.m. on December 18, 2017, an officer working alone at 
Pedestrians was processing multiple travelers when he observed a male 
subject attempt to ``Enter Without Inspection'' (EWI). This EWI had 
exited a door that is used by travelers going to Passport Control from 
Vehicle Hard Secondary or Visitor parking. The lone officer confronted 
the subject and when the officer attempted to control the subject to 
bring him in for inspection, the EWI began to resist.
    Fortunately, this situation happened outside where Vehicle Hard 
secondary officers could see the subject forcibly resisting and 
attempting to get away from the lone officer. However, had this event 
transpired inside the enclosed Pedestrian walkway, this lone officer 
could have been seriously injured or even disarmed.
    It took 5 CBP officers to finally subdue this subject and place him 
in handcuffs. The lone officer was injured during this confrontation 
and was taken to the hospital for treatment for a shoulder injury he 
suffered while trying to subdue this subject.
                    agriculture specialist staffing
    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. For years, NTEU has championed the CBP agriculture 
specialists' Agriculture Quality Inspection (AQI) mission within the 
agency and has fought for increased staffing to fulfill that mission. 
The U.S. agriculture sector is a crucial component of the American 
economy generating over $1 trillion in annual economic activity. 
According to the U.S. Department of Agriculture, foreign pests and 
diseases cost the American economy tens of billions of dollars 
annually.
    NTEU believes that staffing shortages and lack of mission priority 
for the critical work performed by CBP agriculture specialists, CBP 
agriculture detector dog teams, and CBP technicians assigned to the 
ports is a continuing threat to the U.S. economy.
    At many ports, including the port of Brownsville, there are not 
enough agriculture specialists to staff all shifts and CBP officers are 
backfilling for agriculture specialists despite a December 10, 2007 
directive that states ``directors, field operations must ensure that 
CBPAS are assigned to agricultural inspectional activities at the 
individual ports of entry. It is imperative that assignments for these 
employees are dedicated to the mission of protecting the Nation's food 
supply and agricultural industry from pests and diseases absent exigent 
operational circumstances.''
    NTEU worked with Congress to include in the recent CBP Trade 
Facilitation and Enforcement Act (Pub. L. 114-125) a provision that 
required CBP to submit, by the end of February 2017, a plan to create 
an agricultural specialist career track that includes a ``description 
of education, training, experience, and assignments necessary for 
career progression as an agricultural specialist; recruitment and 
retention goals for agricultural specialists, including a time line for 
fulfilling staffing deficits identified in agricultural resource 
allocation models; and, an assessment of equipment and other resources 
needed to support agricultural specialists.''
    CBP's Agriculture Resource Allocation Model (AgRAM) shows a need 
for an additional 721 front-line CBP agriculture specialists and 
supervisors to address current workloads through fiscal year 2018; 
however, even with the 2016 increase in AQI user fees, CBP proposed to 
fund 2,418 CBP agriculture specialist positions in fiscal year 2018, 
not the 3,149 called for by the AgRAM.
    Because of CBP's key mission to protect the Nation's agriculture 
from pests and disease, NTEU urges the committee to authorize the 
hiring of these 731 CBP agriculture specialists to address this 
critical staffing shortage that threatens the U.S. agriculture sector.
                           cbp canine program
    The CBP Canine Program is also critical to CBP's mission. The 
primary goal of the CBP Canine Program is terrorist detection and 
apprehension. The working CBP canine team is one of the best tools 
available to detect and apprehend persons attempting entry into the 
country to organize, incite, and carry out acts of terrorism. The 
Canine Program's secondary goal is detection and seizure of controlled 
substances and other contraband, often used to finance terrorist and/or 
criminal drug trafficking organizations.
    Currently, there are 1,500 authorized canine teams but, as with all 
CBP resources, there is a shortage of canine teams at the ports of 
entry. At one high-volume Southwest Border port, NTEU was told that the 
port only has 24 of the 38 authorized canine teams. By CBP's own 
allocation, this port is short 14 dogs and handlers. NTEU supports 
Congress fully funding and staffing the CBP canine detection program.
                     synthetic opioid interdiction
    CBP plays a major role in addressing the Nation's opioid epidemic--
a crisis that is getting worse, as the deadly chemical fentanyl is 
being manufactured in China and is either funneled through Mexico or 
sent by mail and express consignment operators directly to addresses in 
the United States. Under the Trade Act of 2002, Congress required all 
carriers, including express consignment operators (like FedEx and DHL) 
to work with CBP to inspect inbound international express cargo and 
mail. CBP collects advanced electronic data collection to use to target 
inspections and rolled out the implementation in phases. Express 
consignment operators are required to provide ``electronic advance 
data'' (EAD)--such as the shipper's and recipient's name and address--
for all in-bound express cargo. The data collection requirements were 
to be implemented by CBP in three phases.
    Phase 1 required electronic manifests to CBP for international 
travel 4 hours prior to arrival and for Canada, Mexico, the Caribbean, 
parts of Central and South America at ``wheels up.'' However, every day 
these manifests are inaccurate with countless ``overages.'' An overage 
is a shipment that is not included on the manifest. In other words, an 
overage is an un-manifested, unknown shipment which is in violation of 
the law. A manifested shipment may have 1 or 500 overages, but the 
highest penalty for ``overages'' is $5,000 and these penalties are 
routinely mitigated to $50 for a first violation and $100 for 
subsequent violations.
    Phase 2 required express consignment operators to provide quality 
shipper/consignee data. Express consignment operators that provide an 
electronic manifest that does not show the packages are received from 
legit businesses/addresses and are delivered to legit businesses/
addresses are subject to a penalty.
    In 2007, CBP drafted the phase 3 implementation plan, but to date 
has not implemented it. Phase 3 would allow CBP officers to impose a 
monetary penalty for incorrect manifest descriptions. Without 
implementation of Phase 3, CBP officers cannot penalize carriers for 
bringing in items manifested as one thing that turn out to be another. 
Many of these shipments are not concealed well and are often simply 
mis-manifested. Narcotic chemicals are labeled ``car parts'' or 
``Supplement powder'' and CBP cannot impose a penalty for this 
mislabeling.
    In addition to providing additional needed CBP OFO staffing at the 
express consignment hubs, Congress should direct CBP to provide a 
report to the House Committee on Homeland Security on an annual basis 
on the individuals and companies that violate the Trade Act (19 USC 
1436 and 19 USC 1584.) The annual report would require the violator's 
name; the violation committed; the port of entry/location through which 
the items entered; an inventory of the items seized including 
description of the item and quantity; place of origination including 
address of the violator; the amount in penalties assessed by CBP for 
each violation by violator name and port of entry/location; the amount 
of penalties that CBP could have levied for each violation by violator 
name and port of entry/location and the rationale for negotiating down 
the penalty for each violation by violator name and port of entry/
location.
    Congress, by requiring CBP to report this useful information on 
violators and violator penalty assessments, would enhance CBP's 
interdiction of prohibited items from entering the United States 
through express consignment operators.
                    reimbursable service agreements
    In recent years, in order to find alternative sources of funding to 
address serious CBP officer and agriculture specialist staffing 
shortages, CBP received authorization for and has entered into 
Reimbursable Service Agreements (RSAs) with the private sector as well 
as with State and local governmental entities. These stakeholders 
reimburse CBP for additional inspection services including overtime pay 
and the hiring of new CBP officer and agriculture specialist personnel 
that in the past have been paid for entirely by user fees or 
appropriated funding. According to CBP, since the program began in 2013 
CBP has entered into agreements with 60 stakeholders, providing more 
than 368,000 additional processing hours for incoming commercial and 
cargo traffic.
    NTEU believes that the RSA program would be entirely unnecessary if 
Congress, when it authorized CBP user fees collected to be indexed to 
inflation, had provided that the $140 million a year funding stream be 
used to increase CBP overtime, staffing, and other resources, rather 
than fund highway and other infrastructure projects authorized by the 
2016 highway bill. NTEU also believes that the RSA program is a Band-
Aid approach and cannot replace the need for Congress to either 
appropriate new funding or authorize an increase in customs and 
immigration user fees to adequately address CBP staffing needs at the 
ports.
    RSAs simply cannot replace CBP appropriated or user fee funding--
and makes CBP a ``pay-to-play'' agency. NTEU also remains concerned 
with CBP's new Preclearance expansion program that also relies heavily 
on ``pay-to-play.'' Further, NTEU believes that the use of RSAs to fund 
CBP staffing shortages raises significant equity issues between larger 
and/or wealthier ports and smaller ports, which calls for an engaged 
Congress conducting active oversight.
              ratio of supervisors to front-line personnel
    Another concern is that CBP continues to be a top-heavy management 
organization. In terms of real numbers, since its creation, the number 
of new managers has increased at a much higher rate than the number of 
new front-line CBP hires. CBP's own fiscal year end-of-year workforce 
profile (dated 10/3/15), shows that the supervisor-to-front-line 
employee ratio was 1 to 5.6 for the total CBP workforce, 1 to 5.7 for 
CBP officers, and 1 to 6.6 for CBP agriculture specialists. Prior to 
2003, the supervisor-to-front-line ratio was closer to 1 supervisor to 
12. It is also NTEU's understanding that nearly 1,000 CBP officers are 
serving either at CBP headquarters or non-Office of Field Operations 
locations. This means that nearly 4,000 CBP officers are serving in 
supervisory positions.
    The tremendous increase in CBP managers and supervisors has come at 
the expense of National security preparedness and front-line positions. 
Also, these highly-paid management positions are straining the CBP 
budget. CBP's top-heavy management structure contributes to the lack of 
adequate staffing at the ports, excessive overtime schedules, and 
flagging morale among the rank and file.
                        fiscal year 2019 budget
    The Ranking Member of the Senate Homeland Security and Governmental 
Affairs Committee recently released a report based upon inter-agency 
Office of Management and Budget (OMB) and Homeland Security documents, 
titled ``Department of Homeland Security Fiscal Year 2019 Budget and 
Policy Guidance,'' that she obtained from a whistleblower. The internal 
budget documents relate to the Department's fiscal year 2019 budget 
request, which is not yet final, or public.
    According to the report, OMB has notified DHS that the Department 
will need to shave $88 million from its internal budget request for CBP 
OFO in fiscal year 2019. The report further notes that OMB has proposed 
a hiring increase solely for Border Patrol agents, and is ignoring the 
need to fill thousands of CBP officer vacancies or fund new hires at 
the ports of entries.
    Additionally, the documents indicate that while DHS requested a pay 
raise for its employees, including CBP officers, Border Patrol, and ICE 
agents, OMB denied DHS's request to provide additional pay, and instead 
stated that the administration plans to issue a Government-wide pay 
freeze for all Federal civilian employees for calendar year 2019. NTEU 
would strongly oppose a pay freeze proposal for all Federal employees, 
including for DHS and CPB, which have already struggled to recruit and 
retain law enforcement officers in recent years, and which comes amidst 
the back-up of planned private-sector average 3 percent pay increases 
in 2018.
    As Congress finalizes fiscal year funding in the next few weeks, 
and begins consideration of fiscal year 2019 funding for CBP, NTEU 
urges committee Members to ensure the funding necessary to meet the CBP 
officer and CBP agriculture specialist staffing requirements through 
fiscal year 2018 and 2019, as stipulated in CBP's own Workload Staffing 
Model and to oppose a calendar year 2019 pay freeze.
                            recommendations
    To address the dire staffing situation at the Southwest land ports, 
as well as other staffing shortages around the country, it is clearly 
in the Nation's interest for Congress to authorize and fund an increase 
in the number of CBP officers, CBP agriculture specialists, and other 
CBP employees as stipulated in CBP's workload staffing model.
    In order to achieve the long-term goal of securing the proper 
staffing at CBP to address workloads, NTEU recommends that Congress 
take the following actions:
  <bullet> Fill 1,200 CBP officer current vacancies;
  <bullet> Fund the additional 2,500 CBP officer needed new hires;
  <bullet> Address the polygraph process to mitigate excessive (60 
        percent) applicant polygraph failures;
  <bullet> Fund 721 CBP agriculture specialists needed new hires;
  <bullet> Restore recruitment and retention awards, and other 
        incentives; and
  <bullet> Restore cuts in mission support personnel that will free CBP 
        officers from performing administrative duties such as payroll 
        processing, data entry, and human resources to increase the 
        numbers available for trade and travel security and 
        facilitation.
    Congress should also redirect the recently-enacted increase in 
customs user fees from offsetting transportation spending to its 
original purpose of providing funding for CBP officer staffing and 
overtime, and oppose any legislation to divert additional fees 
collected to other uses or projects.
    The employees I represent are frustrated and their morale is indeed 
low. These employees work hard and care deeply about their jobs and 
their country. These men and women are deserving of more staffing and 
resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to deliver this testimony to the 
committee on their behalf.
                        san ysidro port of entry
    By the summer of 2019, the San Ysidro port of entry expects 
completion of an expansion project that will increase its northbound 
vehicle lanes from 26 to 32 and primary inspection booths from 50 to 
62. The proposed fiscal year 2018 budget recommends no new CBP officer 
hires.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <bullet> 50,000 northbound vehicles processed each day
  <bullet> 25,000 northbound pedestrians cross each day
  <bullet> The port has approximately 200 CBP officer vacancies
  <bullet> The port has a maximum of 26 vehicle lanes with 50 primary 
        inspection booths and 20 pedestrian lanes
  <bullet> The port lacks staff to keep all 50 booths open daily 
        causing backups
  <bullet> The economic cost of lost commerce due to staffing shortages 
        in excess of $7.2 billion and 62,000 jobs

    Ms. McSally. Thank you, Mr. Reardon.
    I now recognize myself for 5 minutes for questions.
    First, I just want to say thanks to all of you and to those 
that you represent for what you do every single day to keep us 
safe. Having been a veteran, oftentimes we are thanked for our 
service for wearing a military uniform. People forget there are 
men and women out there every single day keeping our country 
safe in the capacity that you all represent and what you are 
doing to also keep us safe and putting your lives on the line, 
literally, for potential death or injury in the line of duty.
    I want to open up with the issue of assault. I am very 
deeply concerned about the rise of the assaults on our agents. 
As you mentioned, Mr. Judd, they are often out there by 
themselves with manpower shortages in remote areas with long 
distances for others to respond to help them, and they get hit 
with a rock, they get ambushed, and they are out there on their 
own.
    Thanks for your insights as to what is driving those 
assaults, but what can we do right now? We have men and women 
right now out there risking their lives on shift right now. 
What can we be doing? What do the American people need to hear 
about what is happening with our agents and these assaults? 
What can we do in order to better protect them and make sure 
that those who assault our agents are held accountable for 
their violence?
    Mr. Judd. Your last comment is exactly what needs to be 
done. We have to hold those that assault our agents 
accountable. Unfortunately, very few of those who assault our 
agents are prosecuted for assault on a Federal law enforcement 
officer. When we do that, we send a clear message that our laws 
aren't going to be enforced, and it incentivizes individuals to 
try to assault our agents in an effort to get away.
    Ms. McSally. Why do you think that is?
    Mr. Judd. I think that it is the sheer numbers. If you look 
at how many U.S. attorneys we have, we just don't have the 
resources that are necessary to prosecute the number of 
assaults on agents.
    I want to make one thing very clear. Just like people in 
the military, and we appreciate your military service, our 
agents understand what they are getting into when they put the 
uniform on. They understand that they are going to do a 
dangerous job. As we have seen border crossers drop, our agents 
understand that it is going to be a little bit more violent out 
there because they are going to try to get away a little bit 
more. This is one thing that we are willing to take on in order 
to secure the border.
    Ms. McSally. Do you think it is a bandwidth issue or a will 
issue in the prosecutions? We don't have, you know, oversight 
of Judiciary, but we certainly can work with our colleagues in 
order to raise this issue with the administration.
    Mr. Judd. I believe it is a bandwidth. I think that the 
U.S. attorneys want to see justice brought to those who assault 
our agents, they just don't have the resources to do it.
    Ms. McSally. OK. Thank you.
    Is it safe to say--I mean, I have heard you all talk about 
the morale issues across the board with your agencies and CBP. 
But do you agree that since the new administration has been in 
office, that morale has improved at the higher level of 
understanding that there is now a will and a desire to give you 
the tools that you need to do your job, that you have been 
unshackled from restrictions in the past?
    I think again about my military experience. Sometimes you 
have a new commander at the highest level that changes the 
environment and the culture, and that in and of itself boosts 
morale, but it still takes a while to kind of trickle down 
through mid-level bureaucratic issues or equipment or 
everything you need to do the job.
    But has there been a shift, and do you see that every day 
out there on the job?
    Mr. Anfinsen. Last year, morale was probably about as low 
as it could get. So with the new administration showing the 
support that they are showing, it has helped, but it can only 
do so much. So morale is hit or miss. There are some places you 
have good days and bad days. I think part of the improvement 
has been that we have an administration that clearly supports 
what we do, and that has been a great improvement, but there 
are still issues within the agency that, you know, are going to 
take a while for us to get through. The agency is starting to 
pay more attention to morale, but we are still seeing issues in 
the field where there are managers who feel that it is just not 
their job to be worried about that.
    Ms. McSally. Ms. Pepperdine.
    Ms. Pepperdine. I notice at our sector that morale is 
definitely at an all-time low. I don't believe it has anything 
to do with the administration. I believe it has been more the 
pay reform that Mr. Anfinsen spoke about earlier. Many agents 
weren't happy even though we had to settle for a more stable 
pay system, which was overall better for all of us. A lot of 
people are upset that they lost pay and are doing the same 
dangerous job for less money.
    Ms. McSally. Great. Thank you.
    Mr. Reardon, do you have something to add to that?
    Mr. Reardon. I do. I think the morale for the folks in 
Office of Field Operations, CBP officers, remains dangerously 
low. I think it is really related to the staffing issues that I 
raised, where you have individuals who are working 16-hour 
days, days on end.
    I just heard a story this morning, in fact, that in one pay 
period, we had a CBP officer work 73, hear my words, 73 hours 
of overtime. Where you have that happening, and when it happens 
days on end, week after week, the impact on that individual in 
terms of that person's health, the impact on that family and, I 
might add, the impact on the potential for maintaining high 
security in the ports for our country, it is a major problem.
    I would also offer this in terms of the health: One of the 
things that really concerns me is, over the last probably year 
and a half, maybe 2 years, I have heard, and I get these calls 
late at night or whenever it happens, that there has been a 
dramatic increase in the number of suicides among CBP officers. 
There has been, I have heard from the agency, a dramatic 
increase in the number of substance abuse cases, a dramatic 
increase in the number of domestic violence cases.
    So what I would urge is that, yes, we have to take care of 
staffing, yes, we have to take care of morale, but part of the 
issue that I think has to be looked at is what are the root 
causes of those things? Because they impact, they are a part 
of, morale. Until we start figuring out the answer to those 
questions and start taking care of these officers, we are going 
to have serious problems.
    Ms. McSally. Thank you, Mr. Reardon.
    I am over my time. Before I hand it over to Mr. Vela, I 
just want to say I so appreciate some of the things that you 
have raised for the American people to hear, and we will 
continue to be partners with you on these issues.
    Retention is, I think, a very important top issue. If you 
are going to have to replace people, retaining those you have 
already trained and have all the experience is of the utmost 
importance. Additional duties and queep are things that need to 
somehow be taken off the agents' responsibilities and given to 
other support personnel, others, and we are just going to 
continue to partner with you on all these issues.
    I want to now recognize Mr. Vela, my Ranking Member, for 5 
minutes.
    Mr. Vela. Thank you, Congresswoman McSally.
    I am going to yield 5 minutes to Congresswoman Demings 
because she has to go to a Judiciary Committee hearing. But 
before I do that, I want to follow up on the assault issue real 
quickly with Mr. Judd.
    You mentioned that there is a 76 percent increase in 
assaults during the past year. I am wondering if you can put 
that in the context of how many more assaults were there this 
past year than before then so we can have a real-time idea of 
the number of assaults we are talking about. Second, give us a 
sense as to whether or not the assailants, are they actually--I 
couldn't figure out, are they actually being arrested and just 
not prosecuted or are they getting away and not arrested? If 
you could kind of elaborate on both those issues.
    Mr. Judd. So the total number of assaults in 2017 were 774. 
Seventy-six percent of that--I am no mathematician, but 76 
percent of that, I would say that it would be somewhere around 
300 assaults took place in 2016.
    These individuals are being arrested. The vast majority 
that assault our agents are being arrested. The vast majority 
just aren't being prosecuted. When you think about 776 assaults 
on agents, 776 prosecutions is pretty overwhelming for the U.S. 
Attorney's Office.
    Mr. Vela. So why don't we, after this hearing, at some 
point during the next few weeks, just feel free to come--let's 
meet in the office. We can go into that a little bit more.
    But with that, I will go ahead and yield 5 minutes to 
Congresswoman Demings.
    Mrs. Demings. Thank you so much to our Chairwoman, and also 
to our Ranking Member for yielding.
    Good morning, and thank you so much for being here. I so 
appreciate the service that you are giving and the people that 
you represent who are working hard every day to keep our Nation 
safe.
    I am from Orlando, and I served as the police chief in 
Orlando. I served 27 years at the department, and 5 of those 
years I was assigned to the Orlando International Airport. I 
was assigned to OIA during 9/11.
    I would like to start, Mr. Reardon, by thanking you for 
highlighting the concerns regarding the Orlando International 
Airport, particularly losing 10 officers indefinitely for 
temporary duty assignments at the southwest land ports of 
entry.
    Almost 3 million international passengers arrive through 
OIA each year. While we are thankful to have them visit our 
great city, we must make sure that we still provide an 
efficient and safe operation. That almost 3 million number 
represents an 89 percent increase since 2009. However, the CBP 
officer staffing levels have remained unchanged.
    I want you to think about that. It has remained unchanged. 
An 89 percent increase, the level remained unchanged, and now 
we are talking about sending 10 very valuable and important 
officers to work somewhere else.
    Mr. Reardon, I know that that would not work for municipal 
law enforcement officers to be able to do that much with less 
and still maintain the same level of service that we expect, 
again, to be efficient and effective. Could you please tell me, 
based on your experience, I feel funny even asking you this 
question, but is it reasonable that the same number of officers 
can process almost double the number of international 
passengers? What would such a strain--wouldn't such a strain 
become worse by losing 10 officers as opposed to reaching the 
staffing levels that we so desperately need?
    Mr. Reardon. Congresswoman, thank you very much for your 
comments, and thank you for the question. I don't think it is 
unreasonable to expect that losing 10 officers in Orlando, for 
example, is going to create a serious problem. I think it is a 
problem that we see across the country.
    Where you are short--where our country and the Office of 
Field Operations is short 3,700 officers Nation-wide, it puts, 
as I had indicated previously, a strain on the system, it puts 
a strain on individual officers to the point that--and I am 
choosing my words carefully--our officers are at a breaking 
point. It is not right for our country to do this to these 
human beings.
    So I think we have to get very serious. If we are going to 
be serious about security, and I think we should be, if we are 
going to be serious about the economy in this country, and I 
think we should be, we have got to get serious about getting 
those 3,700 CBP officers hired, because there is a direct 
relationship to the benefit of our security and there is a 
direct relationship to the benefit to our economy.
    Mrs. Demings. To your knowledge, what staffing model does 
CBP use to determine port of entry staffing needs?
    Mr. Reardon. Well, I know they have a work force staffing 
model. In terms of its precise name or anything, I am not 
familiar with that. So, I mean, I can probably get that to you, 
but I don't have that with me today. But it is their work force 
staffing model that suggests that we are 2,500 short. Just to 
be clear, we are also 1,200--we have 1,200 vacancies from the 
2,000 officers that were funded in 2014. So that is where I get 
the 1,200 plus the 2,500 gives you the 3,700.
    Mrs. Demings. Thank you so much, and I yield back.
    Ms. McSally. The Chair now recognizes Mr. Barletta for 5 
minutes.
    Mr. Barletta. Thank you all for being here today and for 
your service to our country.
    As you know, we have immigration laws for two basic 
reasons: To protect our National security and protect American 
jobs. Unless and until we have complete control of our borders, 
it will remain impossible to fulfill this obligation. I am 
pleased that we have a partner in the White House who is 
actively working toward this goal to ensure the safety and 
prosperity of the American people.
    Now, I have dealt with this first-hand and the consequences 
of our Federal Government's failure to enforce our immigration 
laws. I was the mayor of a city that had an illegal immigration 
problem. We are 2,000 miles away from our nearest Southern 
Border.
    I don't need to be briefed on this issue. I lived it every 
single day. Our population in Hazleton grew by nearly 50 
percent, but our tax revenue stayed the same. It became 
impossible for cities like ours, small cities, to deal with the 
problems that comes with the problem of illegal immigration, 
such as drugs, gangs, identity theft, fraud, and everything 
else that happens with it.
    I came down to Washington in December 2005 and asked for 
help. I met with the Department of Justice, and they were 
great. They brought in all these experts to talk to me. At the 
end of the day, I got this nice coffee mug, I got a lapel pin, 
I got a pat on the back, and they sent me home.
    Very shortly after that, a 29-year-old city man, Derek 
Kichline, father of three little children, he had some words 
with the head of the Latin Kings, who was in the country 
illegally; a man that was arrested six times and let go in 
sanctuary cities. The man went and got a gun, stuck it between 
Derek's eyes, shot and killed him. We spent half of our yearly 
budget in overtime in the police department in catching him and 
his buddy.
    I had to sit with Mr. and Mrs. Kichline, and I had to sit 
with the family and explain why this man was still in the 
country and their son is gone. I had enough at that point. The 
Federal Government failed us. They weren't going to do 
anything. I created the first law in America as a mayor to try 
to deal with that problem, and I was sued immediately by 
illegal aliens.
    So here we are 2018, and we are still talking about it. I 
have always been told that we must have compassion for the 
people who come here illegally, but no one speaks up for the 
victims of these crimes.
    Mr. Anfinsen and Ms. Pepperdine, what do you see as the 
most effective means of deterring illegal immigration once and 
for all? Tell me how sanctuary cities make it more difficult to 
enforce our immigration laws.
    I was sued being a mayor wanting to enforce our laws, and 
now we have over 380 mayors thumbing their nose at the Federal 
Government, creating safe havens for people who are in the 
country illegally. I would like to hear your opinion.
    Mr. Anfinsen. Well, you mentioned it there: Enforce the 
laws that we have on the books.
    In the Del Rio Sector, we were the first ones to implement 
what was previously called Operation Streamline, which meant 
that anybody arrested crossing the border illegally in our 
sector went to jail for some period of time. If it was your 
first time crossing, you might see a week, 10 days maybe. If 
you had crossed multiple times, you were going to see more time 
in jail. Ultimately, I don't have the percentage, but it led to 
a significant drop in apprehensions in our sector, and that 
deterred, at least in our area, but then it just pushed it 
elsewhere.
    With the interior of the country, it has gotten to a point 
where they feel once they pass the border, they are home free. 
There are no repercussions to being illegally present in the 
United States, and we do have laws on the books to do this. We 
do. There is no reason not to enforce them, but that is what 
has been going on.
    Mr. Barletta. Ms. Pepperdine.
    Ms. Pepperdine. I agree with Mr. Anfinsen. I also believe 
assurance of apprehension at the border is a huge deterrent in 
illegal immigration.
    You asked about the safe havens. They definitely hurt us in 
the long run, not just us as agents doing our job, but the 
American people.
    Mr. Barletta. I would like to apologize to all the families 
across this country who are victims of illegal immigration. You 
know, the focus is always on the illegal immigrant that comes 
here for a better life, but there are families there that have 
lost loved ones, and here we are, and I hope once and for all 
we do the right thing and secure our borders and then deal with 
the problem on the interior.
    Thank you.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Correa from California for 5 
minutes.
    Mr. Correa. Thank you, Madam Chair.
    I just wanted to thank all the officers for the good job 
you do for all our citizens, and also want to tell all the 
victims of crimes in this country, those perpetrators with and 
without documents, we are coming after all of you. We are not 
going to make any distinction.
    Gentlemen, ma'am, I had a chance to tour the San Ysidro 
border again a few months ago, and we have some great officers 
with, you know, great attitudes. A few of them were very proud 
to tell me about their big arrests or big busts, drug busts, of 
these big shipments.
    Most of the shipments, by the way, are coming through 
border ports of entry. It is not folks with backpacks spinning 
across the mountains. It is folks driving across our border 
crossings, either through vehicles, family vehicles, or trucks. 
I asked these folks: How are you able to spot the shipments? It 
was interesting, because without a doubt, without a beat, they 
told me the experienced officer was the one that could look 
into the driver's eyes, they could look into passengers' eyes 
and say: There is something not right here. Then what they 
would do is bring over the police dogs, the drug-sniffing dogs, 
and, bingo, you had massive arrests because of the massive drug 
shipments that they could identify.
    Conclusion? You are absolutely right. We need more agents, 
more of those blue agents on the border, to be able to identify 
the illicit drugs and other smuggling operations. You need more 
dogs there. They have proven to be better than any other 
technology that we have today.
    So given the limited resources that we have, I mean, where 
do we put our money? Do we put it on building another wall, 
another fence? Or do we put in more personnel and bring in 
more, you know, dogs and other technologies to identify these 
illicit shipments at border points of entry?
    By the way, I want to say we also need them to make sure 
that commerce, good commerce, comes to and from the United 
States. You know, Mexico is, I think, our biggest trading 
partner in the world. So we want to create jobs. We want to 
make sure that commerce continues to be healthy.
    So again, my question to all of you is: If you had to 
prioritize investment, where would it go?
    Mr. Judd. It has got to be a combination of the two. It has 
got to be----
    Mr. Correa. If you had to prioritize, sir?
    Mr. Judd. You can't. It has got to be a holistic approach.
    Mr. Correa. A, B, or C?
    Mr. Judd. You can't just say one is the key that is going 
to stop everything that we face. You have to look at 
everything.
    Mr. Correa. In San Ysidro you have three fences, I believe, 
in some areas? It is a question, sir.
    Mr. Judd. I worked as an intel agent, so I was able to 
analyze--I was also a canine handler.
    Mr. Correa. I am not being argumentative with you. I am 
saying in San Ysidro, do we have three fences there right now 
in some areas?
    Mr. Judd. We have double fencing, which has been very 
effective in those areas, yes.
    Mr. Correa. OK. So when you say ``holistic''--San Ysidro is 
the most-crossed border entry point in the world. How can we 
make that much more effective? Where would you invest the 
money?
    Mr. Judd. As far as ports of entry, we are going to have to 
yield to Mr. Reardon. That is where he works. I work in between 
the ports of entry.
    Mr. Correa. Mr. Reardon.
    Mr. Reardon. Congressman, thank you for the question, and I 
am more than happy to answer it.
    Without question, I would put the resources into our human 
resources. We are, as I said, short a large number of CBP 
officers at San Ysidro. There are TDYs that are required as a 
result, which leaves other ports short-staffed and vulnerable, 
and yet we are still short people in San Ysidro. The impact on 
officers, on their health, on their families, on the entire 
system, is dramatic.
    Yes, there is an economic impact. For every 33 officers--
and these are CBP numbers--for every 33 officers hired, we 
could expect to bring in 1,000 private-sector jobs. So if we 
are going to take the economy seriously and we are worried 
about jobs, there is a primary candidate for it.
    Mr. Correa. I am running out of time. I just want to thank 
you for the straight answer. As a policy maker, that is all I 
want, is good information so I can figure out how to make these 
decisions.
    Mr. Judd, absolutely right. It is holistic approach, but, 
you know, when you have a limited number of taxpayer dollars, 
you want to figure out where they go. I have talked to those, 
you know, border agents. Overworked, but you know what? They do 
a great job. Thank you very much.
    Ms. McSally. Thank you.
    Before we go to Mr. Rutherford, I am going to have to step 
out to go to the White House for an important bicameral, 
bipartisanship meeting with the President. Just know that I 
will be advocating for the agents and everything that you need 
in order to secure our border. Reasonable changes that need to 
happen in order to make sure we keep our country and community 
safe.
    So I apologize for having to step out for this important 
meeting. Mr. Hurd from Texas will be coming into the chair.
    The Chair now recognizes--oh, is Rutherford coming in to 
chair? Who is coming to the chair? Yes, he is the vice chair so 
he is coming in to the chair. But you are now recognized. So 
hold that thought for a second.
    Thanks for all you do, and hold that thought here. Mr. 
Hurd, do you want to start coming back?
    The Chair recognizes Mr. Rutherford for 5 minutes.
    Mr. Rutherford. Thank you, Madam Chair.
    Listen, let me say, you know, I have heard others--first of 
all, thank you all for your service in a very, very tough, 
tough job. I know we have had other witnesses here speak to us 
about apprehension, securing the border and what that would 
look like, and really the conversation was about, you know, you 
need an impediment to slow them down, whether that is a wall or 
it is electronic, to detect, then you need to detect whoever is 
coming through, and then finally, and I think most critically, 
as Mr. Reardon has pointed out, then you have to have the human 
assets on the--the boots on the ground to actually apprehend 
those folks once they breach your impediment.
    Now, what the impediment requires is a wall, some 
electronics, whatever that might be. I know on the Rio Grande, 
good Lord, they are even using these static balloons, you know, 
World War II stuff. It is horrible. Yet around, I think it is 
pronounced Fort Huachuca, they have drones and other devices 
that are incredibly effective. They have the big pipe, as they 
call it. So their communications is working great in those 
areas.
    But then when you look at these three areas, when you look 
at the impediment, the detection, and the apprehension, and we 
talk about, you know, the physical barriers and the needs for 
those physical barriers and the lack of them in the Rio Grande 
Valley, which is where, you know, we did a codel to the 
Southern Border, and it looked like they got to around Fort 
Huachuca and ran out of money. You know, we were going from San 
Diego east. The Rio Grande is--they are in deep, deep need of 
help with the physical border.
    On the detection piece, when you talk about the 
communications, and then I hear Ms. Pepperdine talking about 
the lack of communications, that you can actually see someone, 
but you can't communicate with them on your radio that doesn't 
work, so they actually use a cell phone. Their cell phone works 
better than their radio communications.
    And, Lord, then you get to the apprehension piece and you 
talk about the manpower and, you know, Mr. Reardon has very 
well pointed out, you know, this 3,700 CBP officers short, 
1,200 in these ports. I know, I was a sheriff for 12 years in 
Florida, worked closely with my colleague Mrs. Demings, and I 
can tell you, I understand the drain that that puts on your 
personnel and the impact that it has on their efficiency.
    So, you know, when all of that fails--and in the interior 
in Jacksonville, for example, I had to start a 287(g) program 
in my community because we had a subculture that had grown in 
the illegal community, and not only were they violent toward 
citizens, as Mr. Barletta pointed out, but they are also 
violent toward each other. Incredible amounts of rape and 
domestic abuse that is going unreported because they don't want 
to be deported. So we started a 287(g) program that would 
identify these individuals when they were in our jail so that 
we could deport them.
    I just want to make a commitment to you, and I will ask Mr. 
Reardon, because I believe the place you have to start is with 
the manpower. What can we do to help you--you know, we have 
passed a bill to not require the polygraphs so that we can cut 
down on the time to hire. What else can we do? Raises I would 
imagine would help. When I see 25 to 40 percent of their income 
in a year is on overtime, that is not a good thing. That is a 
bad thing. Yes, it increases their salary and their take home, 
but it also leads to all of those issues that you pointed out 
before: Suicide, domestic violence, and other issues.
    Could you please answer that?
    My time has run out. I yield back.
    Mr. Reardon. Certainly, Congressman. Thank you very much. I 
will try to go quickly through this. I think one is we have 
already talked about the length of time to on-board staff. I 
think the segmented hiring process that exists creates a lot of 
problems, and that is sort-of a subset of the hiring delays. I 
mean, in the past, I know it took in the neighborhood of 16 to 
18 months to on-board somebody. No one that I know can wait 
that period of time in order to take a job. They are going to 
go work for the sheriff, they are going to work for a local 
police department or wherever, so that is important.
    We talked about the polygraph. The fact that we have a 63 
to 66 percent failure rate in the polygraphs is unconscionable. 
Something is wrong. Something should be done immediately to fix 
that, and I know we are working on that.
    I think also related to the polygraph, right now, if an 
individual is identified with a no opinion result or an 
inconclusive result or a no opinion countermeasures finding, 
they have to wait an extended period of time before they can 
retest. I think they should be able to retest immediately.
    I think that in terms of FLETC where our officers go to 
train, Federal Law Enforcement Training Center, I think it is 
important that we expand a number of classes. I think it is 
important that we look at the potential for having 6 days of 
training rather than 5, as long as, of course, you know, people 
are paid for 6 days. That is an important piece.
    But I also think one other thing that can be done is, right 
now, there is something known as post-FLETC training. So the 
person goes to FLETC, they go through all their training, they 
then go back to their port, and then they are in a post-FLETC 
training period for 10 months. What I am hearing from my 
officers is that is too long, that certainly they need to go 
through the training, certainly they need to be prepared to 
work on the line, work primary, work secondary, but 10 months 
is too long. So those are the things that I would offer.
    Mr. Hurd [presiding]. Thank you, Mr. Reardon.
    Now the distinguished gentlewoman from California, Ms. 
Barragan, is recognized for 5 minutes.
    Ms. Barragan. I thank you, Mr. Chairman.
    I want to thank all the witnesses for being here today. I 
think this is an important topic. My concern is about the 
timing. We are at a time where it appears that there is an 
effort being made to portray immigrants as violent criminals to 
justify these anti-immigration actions and policies. It is also 
a time when we are debating DREAMers and the future of U.S. 
immigration policy.
    I think it is key to hear from officers from the front 
lines and to learn about the dangers that we face daily so 
Congress can work to address real border security threats. But 
I think it is also important to be clear about what groups we 
are talking about here today. The way I see this is we are 
really talking about the drug cartels, criminal aliens, 
hardened criminals who are responsible for violence at the 
border.
    Mr. Judd, would you agree with that?
    Mr. Judd. I would agree that we need to address the violent 
criminals at the border.
    Ms. Barragan. Mr. Judd, do you support a legislative 
solution that puts DREAMers on a pathway to citizenship?
    Mr. Judd. I support anything that we--when we are going to 
talk about comprehensive immigration reform, when we talked 
about it in 2013, we talked about border security. You have to 
secure the border first before we look at something like that, 
otherwise we are right back in the same situation. Now, if we 
secure the border, absolutely.
    When you look at DREAMers, the difference between DREAMers 
as opposed to other people is there was no intent to break the 
law. They never had an intent to break the law. They didn't 
come here knowingly to break the law, and so they are in a 
little bit different situation. But the problem is is the 
parents are able to use them to circumvent----
    Ms. Barragan. Mr. Judd, I am just asking you about the 
DREAMers. My question is do you support a pathway for the 
DREAMers?
    Mr. Judd. I support border security and then look at 
anything beyond that.
    Ms. Barragan. OK. Well, there was a video of you on 
February 27, 2017, where you specifically went on to support 
the DREAMers, and you said, ``To no fault of their own and they 
came to this country, and as you know why we want to send 
somebody that came here when they are 1 year old back.'' And 
that, ``It is common sense to find a pathway to them to stay in 
this country.'' We are talking about the DREAMers. Did you not 
say that?
    Mr. Judd. I did.
    Ms. Barragan. OK. Thank you.
    Mr. Judd. That is what I am explaining.
    Ms. Barragan. I am not trying to be argumentative. It was a 
very simple question, and it didn't seem like you wanted to 
reconfirm what you had previously said in the past.
    I want to talk a little bit about body cameras, if anybody 
on this panel maybe want to comment on this. I think, 
unfortunately, our agents and officers are confronted an uptick 
in violence at the border. Again, it is stemming, I think, from 
the cartels, from violence--drug cartels, rather, and criminal 
aliens attempting to illegally enter.
    The use of body-worn cameras is something that has been 
considered a best practice in law enforcement agencies. As we 
have seen, it increases accountability and transparency. In Los 
Angeles where I represent, the LAPD has placed body cameras on 
thousands of officers. Just quickly, do you have an opinion, 
yes or no, just down the panel, whether you think body cameras 
would be effective to try to put into place?
    Mr. Anfinsen. I think they can be effective. The problem is 
we haven't yet seen a camera that can handle the environment 
that we work in.
    Ms. Barragan. OK. Anybody else?
    Mr. Judd. We have looked at all cameras, and if there is a 
camera that can handle our environment, absolutely.
    Ms. Barragan. Ms. Pepperdine.
    Ms. Pepperdine. Definitely. We don't work like most law 
enforcement. It is not the same kind of beat. Our terrain is 
rugged, and because of that it is hard to find a camera that we 
can utilize. But I love the idea of having a camera.
    Ms. Barragan. Mr. Reardon.
    Mr. Reardon. Thank you, Congresswoman. Currently, there are 
some pilots going on for our folks, and we are supportive of 
those pilots.
    Ms. Barragan. Great. Thank you.
    Mr. Reardon, back in October, our committee--Homeland--held 
a field hearing at the port of Los Angeles to talk about 
security at the ports. You submitted a statement for the record 
asserting that staffing shortages at the seaports Nation-wide 
are especially acute. I want to thank you for doing that, and 
thank you for your testimony here today.
    I was drawn by when I saw reports that the President's 
proposal had included more money for Border Patrol agents but 
really didn't include any more money for Customs officers, 
which I believe the greatest threat, from what I have learned 
in my committee, is going to come through seaports and 
airports. So I want to applaud the work that you are doing, not 
just at the port of Los Angeles where I represent the largest 
port and busiest port by container volume, but for what your 
employees do to secure our ports. I am with you in believing 
that if we are going to put more money, they need to help the 
human assets that we have to increase morale and making sure 
they are not working 73 hours of overtime, which, as you state, 
is absolutely just unacceptable.
    Thank you. I yield back.
    Mr. Hurd. It is now my pleasure to recognize a gentleman 
who has served his country his entire adult life, the gentleman 
from Nebraska, General Bacon. You are now recognized for 5 
minutes.
    Mr. Bacon. Thank you very much. I want to thank all of you 
for helping to defend our country.
    Mr. Judd, I think most Americans agree, at least in my 
district, that we want to solve the problem and provide a long-
term solution for DACA. What I hear from folks in our district 
is if you just solve the long-term issue for the DACA youth 
that are here, we are going to have to do it again in 3 years, 
in 5 years, in 7 years if we don't find a solution at the 
border and fix the border, as well as our visas. So I think 
what you are saying represents the majority of what I am 
hearing in our district.
    One of the things that concerns me about--I have only been 
a part of this committee now for about a month and had a recent 
hearing, and I heard from the Homeland Security folks that we 
have captured Sunni extremists trying to come through our 
Southern Border. So often when we talk about border security we 
focus on immigration and it becomes controversial, but I think 
we forget the fact that there are people in the Middle East 
that know that we have a porous border and they are trying to 
come over the border. It is, granted, maybe out of a thousand 
we are talking one or two. But one or two suicide bombers is 
unacceptable.
    I think if we put a little more emphasis on the al-Qaeda, 
the ISIS threat, this will help unify our country better 
knowing that we do have to do something more for our border 
security. But I would love to have your thoughts on that, Mr. 
Judd. Are we missing the boat on our messaging?
    Mr. Judd. We are. In fact, what needs to happen is CBP 
needs to release to the public the number of people that we are 
catching from countries of special interest. Like right now, we 
are catching an awful lot of people that are claiming to be 
from Bangladesh, but our agents believe that they are from 
Afghanistan. When they are interviewed, because we don't have 
those language skills so we have to use AT&T interpreters or 
some other interpreter, they are telling us they are not from 
Bangladesh.
    So what needs to happen is CBP needs to let the American 
public know that this is what we are dealing with. We are not 
just dealing with people from the country of Mexico. We are 
dealing with people from all over the world, including from 
special interest countries.
    Mr. Bacon. Absolutely. I brought this up to the Homeland 
Security representatives. I did not get a good answer why we 
are not telling the American people that we are capturing al-
Qaeda and ISIS operatives come over our border. I think the 
impression I am getting is they don't want to talk about how we 
caught them. Fair enough. We don't have to do that. But the 
American people deserve to know that we have had suicide 
bombers with that intent trying to come here, and I think that 
that would provide a more unifying conversation of what we have 
got to do at the border and why. It is not just about 
immigration; it is about security.
    Now, I have only been part of this committee, again, for 
just a month, and I have heard a couple times now from our 
friends on the other side of the aisle comparing the Canadian 
border with our border in the south. Could you give me your 
views of how these two borders compare threat-wise, volume of 
threat-wise, the volume of violence committed against our 
border people? Thank you.
    Mr. Judd. There is no comparison of the number of illegal 
crossings that are taking place, whether it be on the Southwest 
or the Northern Border. The numbers are astronomical on the 
Southwest Border, and again, from countries that you would 
never think are coming here. But all indications show that if 
terrorists are going to come across the border, they are going 
to use the path of least resistance, which is going to be the 
Northern Border because we have very few agents on the Northern 
Border and it is very easy to come across.
    Now, we are seeing it on the Southwest Border. The problem 
is, is we just don't know what is crossing on the Northern 
Border because we are not very effective up there simply due to 
our numbers.
    Mr. Bacon. So we need to put some emphasis in both areas.
    Mr. Judd. We do.
    Mr. Bacon. OK. Now, for our remaining panelists, I wanted 
to ask you, as you look at the wall that we are talking about 
putting, what is--and you have referred to it a little bit--
what is optimal, a 2,000-mile wall or just focus on some key 
areas? What should that wall look like? Should it be something 
you can look through? What would be the optimal configuration, 
from your perspective?
    Mr. Anfinsen. Well, it has become pretty clear we don't 
need a wall from coast to the Gulf; we just don't. There are 
some areas it is just not feasible to build in. There is a lake 
in my area. We are not building a wall there. There are other 
spots along the river where it is going to be extremely 
difficult to build and it wouldn't be feasible. So in those 
areas where we are not building a wall, that is where the 
technology piece comes in: Cameras, additional sensor 
technology, and of course, more agents.
    As far as what the wall would look like, I mean, we have 
seen some prototypes there, but ideally--it doesn't necessarily 
need to be see-through, but we need to be able to see what is 
happening on the other side, so maybe see-through but maybe use 
cameras. The idea is we need to see what is on the other side 
preparing to try to get past the wall so we can prepare 
ourselves.
    Mr. Bacon. So if I hear you right, there is selected areas 
that we need to put physical security barriers in, but not the 
2,000-mile wall, but you think there are key areas that we need 
to focus on.
    Mr. Anfinsen. Absolutely.
    Mr. Bacon. Ms. Pepperdine.
    Ms. Pepperdine. The wall is definitely necessary. It 
doesn't need to be a physical wall in some areas. You don't 
need a pedestrian wall. Some areas we could utilize vehicle 
barriers. That is what we use in Tucson sector, at least in 
Casa Grande station. We are utilizing vehicle barriers and that 
has been very effective, but we definitely in some areas do 
need a pedestrian wall.
    Mr. Bacon. OK. Thank you very much. I just want to close by 
thanking Mr. Reardon for your comments on the economic impacts. 
I think you have a very valid point.
    With that, Chairman, I yield back.
    Mr. Hurd. I recognize myself for 5 minutes.
    First off, I appreciate the panel being here today and 
talking about something that a lot of people talk about, but 
don't have any experience the way that you all do. I would like 
to thank Mr. Judd and Mr. Anfinsen specifically for all the 
work you have done to educate me on this important issue. Mr. 
Anfinsen has taken me through carrizo cane on lakes, and I have 
gotten a real-world experience, and that experience has allowed 
me to come educate my colleagues that your push-and-talk radios 
don't work in some places. Your cell phone coverage doesn't 
work in some places. That you-all's experience is important.
    So we talked about a lot of topics today. I think everybody 
agrees we don't have the manpower, and we have to have the 
strategies in place to hit the manpower needs that we should be 
achieving. I think there is actually not much disagreement on 
that.
    My question is, and it is for all four of you all, and if 
you can answer in a short response because I have a couple 
more, are the people--is our manpower in the right places? We 
have limited manpower, but is the manpower in the right places?
    Mr. Judd, why don't you start us off.
    Mr. Judd. At times that is--you can't answer that question 
without going into in depth, but I would be happy to sit down 
with you and discuss that.
    Mr. Hurd. Jon.
    Mr. Anfinsen. We need more in certain areas like Big Bend 
Sector, for example; I know they are understaffed. We also have 
a lot of agents who spend their times indoors processing or 
doing other administrative work when they could be out in the 
field.
    Mr. Hurd. Put them on the border, huh?
    Mr. Anfinsen. That is right.
    Mr. Hurd. Ms. Pepperdine.
    Ms. Pepperdine. I definitely agree with them. We definitely 
are--have a lot of details, a lot of agents detailed out, so we 
are not actually on the border. We definitely need to break 
some of those details down and bring them back.
    Mr. Hurd. Mr. Reardon.
    Mr. Reardon. Congressman, thank you. In addition to not 
having enough CBPOs, we also have, in my view, too many 
managers. In 2003, there was a ratio of----
    Mr. Hurd. This is the 1-to-4 versus the----
    Mr. Reardon [continuing]. One-to-12 at that time in the 
ports. Now it is 1-to-5.6. So I think that is a problem. I 
would also agree that for our CBPOs, too many of them are 
spending time doing administrative work when they could be on 
the front lines, and I think that is something that needs to be 
addressed.
    Mr. Hurd. Maybe this next question for Mr. Reardon and Mr. 
Judd, but Jon and Ms. Pepperdine, I welcome your feedback, have 
you all--have the unions given a suggestion or idea of a plan 
on a structure for how do you incent the right behavior? How do 
you make sure you have officers that are willing to go to some 
of these remote places, like in some places in Big Bend, in 
order to address that morale question when you are in hardship?
    So having served in a few hardship places during my career 
with the CIA, I understand the model that is created in order 
to incent that behavior, and it seems that within you-all's 
ranks we don't have that. So, Mr. Judd, do you want to lead 
off?
    Mr. Judd. We have, and I think that CBP is looking at 
addressing that issue now. Right now, we have a very good 
leader at the top. I think that if you look at the structure 
within CBP and the Border Patrol, our top leader, our second 
and our third are absolutely fantastic, and they are looking at 
these issues, and I think they are going to address them.
    Mr. Hurd. I would welcome--the committee would welcome the 
suggestions and the points that you do have just so that we can 
get familiar with that.
    Mr. Judd. Will do.
    Mr. Hurd. Mr. Reardon, do you have anything else to add?
    Mr. Reardon. I do. Thank you. You know, there are 
recruitment, relocation, and retention bonuses that are 
available now. I mean, you know, the opportunity to provide 
those exists already. Whether there is funding or not is 
certainly a different matter. So I think better utilizing those 
sorts of bonuses I think would be helpful. But I will also tell 
you that, you know, where we talk about morale, I think we need 
to deal, as I had indicated before, with appropriations for 
additional CBPOs.
    But there is one other thing that when we are looking at 
trying to make a career at CBP more attractive, I think it is 
difficult to try to go out and recruit folks, and at the same 
time, they are hearing in the media the potential for Federal 
employees, all Federal employees getting another pay freeze. 
That is a nonstarter.
    Mr. Hurd. Loud and clear. This committee has spoken on this 
topic. We have included incentives in several sessions of the 
Border Security bill that was passed out of here. As a former 
Government employee--I guess I still am a Government employee--
you know, I recognize the needs and the difficulties that you 
all go through, and so I appreciate you all coming up here to 
continue to educate. I appreciate you-all's willingness to take 
many of our colleagues and our staff and show them the real-
world examples of what you all have to go through every single 
day, and we are going to have to continue to do that. We are 
going to have to continue to educate our colleagues that we can 
start making better decisions up here to support the important 
efforts that you do.
    Now it is a pleasure to recognize my colleague from the 
great State of Texas. Mr. Vela, you are now recognized.
    Mr. Vela. Thank you. I have got a couple more questions 
before we break here. In about 5 minutes, our leadership from 
both parties is going to the White House to talk about many of 
the issues we have discussed here today.
    Mr. Reardon, I think you mentioned that probably the single 
most important factor that you think is important to address 
are the 1,200 agents that we are short of, and I understand 
with the other formula you are talking about could be another 
2,500, right?
    Mr. Judd, I am sure that with respect to the shortage of 
1,900 officers that we are short of on the Border Patrol side, 
you know, with currently mandated funding, right, that you see 
that as critical as well.
    So, you know, knowing that we have got our folks on the way 
over there, what is the message? I mean, what can we do, given 
the current dialog, to help get the 1,200 officers we need on 
the CBPO side and the 1,900 on the Border Patrol side, you 
know, in the next year?
    Mr. Judd. We have got to look at what needs to be done to 
retain our employees, and there is a lot of things that need to 
be done. We need to change the culture within the Border 
Patrol. We need to look at the pay issues within the Border 
Patrol, and we need to make those pay issues equal across the 
boards. I mean, if you look at CBPO officers and you look at 
Border Patrol, if you look at their overtime, they get double 
pay for every hour that they work. A Border Patrol agent gets 
straight pay for every hour work they work. A CBPO officer for 
Sunday pay gets 50 percent. A Border Patrol agent gets 25 
percent. Night differential, CBP officers can go all the way up 
to 25 percent, whereas a Border Patrol agent caps out at 10 
percent. So you look at our sister agency, and we don't even 
have pay parity within our agencies within CBP, and so you have 
to look at those issues.
    But what I would really like to see is I would like to see 
us secure our border so that we can deal with issues like 
DREAMers, like immigration reform, like those issues, so that 
we can take care of those issues that allows us to move 
together together instead of in a partisan fashion, which has 
been so disruptive to this country at this point.
    Mr. Vela. Right. But aren't you also saying that in order 
to do that, we need to take care of this issue of 1,900 
officers that we are short of?
    Mr. Judd. We do. We do. We have to retain our employees and 
hire those 1,900 agents.
    Mr. Vela. Mr. Reardon.
    Mr. Reardon. Yes, thank you, Congressman. I think there are 
several things. I think, No. 1, providing appropriations for 
additional staffing I think is important. I think fixing the 
polygraph problem is something that is important. I think 
fixing the hiring process so that it doesn't take 16 to 18 
months or even 9 months to on-board somebody. I heard--I was 
talking to one of our officers not that long ago and he told 
me, you know, it only took me about 8 months to be on-boarded. 
I have to tell you, I found myself at that moment thinking, 
wow, that is really great. Then when you think about it, that 
is crazy. It should not take that long. So I think something 
has to be done to fix that as well.
    I also, as I just said prior, I think we have to make sure 
that we are better utilizing the recruitment, relocation, and 
retention bonuses that are available. I will tell you that I 
think oftentimes in agencies, many of the personnel folks don't 
fully understand how to utilize those. So I think it is 
important that OPM or wherever they would get that training 
from and that understanding of how to better utilize the three 
Rs, as they are known, I think is also important.
    Mr. Vela. One last question for you, Mr. Reardon. The 
President's budget proposed shifting the funding of CBP 
officers to more fee-based versus direct funding and 
investments for improvement at ports of entry. What is your 
thoughts on that budget proposal?
    Mr. Reardon. Well, you know, I think it is important to 
make the appropriations available to fully fund the number of 
CBP officers that we need. I think to get into a situation 
where, you know, we are basing everything on fees or majority 
on fees is a difficult place to be.
    Now, that is not to say that fees aren't important because, 
in fact, fees are important. I would also suggest that any of 
the fees that are available right now, that they not be 
directed in other areas; that they be focused on bringing in 
more staffing. But, you know, for me, I think it is important, 
to the extent that we can, to fully fund all of our CBP 
officers and the additional ones that we need.
    Mr. Vela. Well, thank all of you, again, for your time 
today.
    Mr. Hurd. I would like to thank the witnesses for you all's 
valuable testimony, and I want to thank the Members for you-
all's questions. Many of the Members of the committee will have 
additional questions that we will ask you to respond to in 
writing, if those exist. Pursuant to committee rule VII(D), the 
hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
